<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2011</title>
<body><pre>[Senate Hearing 111-]
[From the U.S. Government Publishing Office]


 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2011 

                              ----------                              


                        WEDNESDAY, MAY 12, 2010

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 11:01 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Daniel K. Inouye (chairman) 
presiding.
    Present: Senators Inouye, Leahy, Dorgan, Murray, Cochran, 
Bond, Bennett, and Brownback.

                         DEPARTMENT OF DEFENSE

                      Department of the Air Force

                        Office of the Secretary

STATEMENT OF HON. MICHAEL B. DONLEY, SECRETARY

             OPENING STATEMENT OF CHAIRMAN DANIEL K. INOUYE

    Chairman Inouye. All right. First, I would like to 
apologize for our lateness. We had a few votes.
    This morning, we welcome back the Honorable Michael Donley, 
Secretary of the Air Force, and General Norton Schwartz, the 
Air Force Chief of Staff. And we thank you for being here as 
the subcommittee reviews the Air Force's budget request for 
fiscal year 2011.
    For fiscal year 2011 the Air Force is requesting $150 
billion in base budget. This funding level is an increase of 
$15.3 billion over last year's enacted budget, excluding 
funding appropriated in fiscal year 2010 supplemental.
    The Air Force is also requesting $20.8 billion for overseas 
contingency operations for fiscal year 2011, and $6.1 billion 
for the remainder of fiscal year 2010, primarily to fund the 
surge operations in Afghanistan.
    The 2010 Quadrennial Defense Review (QDR) emphasized the 
need to prevail in today's wars, while building the 
capabilities to deal with future threats. The fiscal year 2011 
budget request is consistent with these goals.
    The Air Force's budget supports its highest priorities, 
which are to strengthen air, space, and cyber capabilities to 
help win the wars in Iraq and Afghanistan. For example, the Air 
Force continues to invest in intelligence, surveillance, and 
reconnaissance (ISR) programs. These assets, such as the MC-12 
Liberty aircraft and Reapers and Predator unmanned aerial 
vehicles (UAV's) are significantly improving the situational 
awareness of our forces in the area.
    Success in getting timely information to the warfighter 
directly depends on having the manpower available to pilot the 
vehicles and to provide actionable intelligence. The Air Force 
will allocate more than 3,600 employees to support the 
processing, exploitation, and dissemination of intelligence 
collected by manned and remotely piloted vehicles by the end of 
fiscal year 2011. The Air Force will be operating 50 continuous 
combat air patrols with remotely piloted vehicles in the 
theater.
    And the subcommittee is pleased with the way the Air Force 
has rapidly increased the intelligence, surveillance, and 
reconnaissance capabilities to meet high theater demands, and 
interested in how these assets will become part of the enduring 
force structure.
    While fully engaging in the present conflicts, the Air 
Force is also aggressively addressing deficiencies in the older 
mission, the nuclear enterprise. The Air Force implemented a 
number of measures to strengthen stewardship of its nuclear 
arsenal, including the creation of Air Force Global Strike 
Command in August 2009. This action was a significant step in 
revitalizing the commitment to high safety and compliance 
standards in this critical mission.
    The budget also portrays the Air Force preparing for the 
future. Funds are requested to initiate the new tanker program 
and begin the requirements work for the new, next-generation 
bomber.
    So, too, the Joint Strike Fighter (JSF) Program is funded 
consistent with the Department's most recent cost, schedule, 
and performance assessments. These are all important 
recapitalization efforts.
    The budget also contains substantial investment in space 
and space-related systems, including both major satellite 
programs and small efforts, like the Operation Ally Responsive 
Space Program, which focuses on rapid and innovative 
technologies.
    Looking to the future, the Air Force has a number of 
challenges, from modernizing aircraft and other equipment to 
ensuring that there is adequate manning for growing missions, 
such as cybersecurity, ISR, and the acquisition workforce.
    The subcommittee is interested in understanding how the Air 
Force is addressing these challenges. Yesterday, the Air Force 
announced its force structure plans for 2011. We hope our 
witnesses will address the proposed changes and their impact on 
the force capability and readiness.
    So, gentlemen, we sincerely appreciate your service to our 
Nation, and recognize the dedication and services made dearly 
by the men and women of our Air Force. We could not be more 
grateful for what those who wear our Nation's uniform do for 
our country each and every day.
    And I look forward to our testimony this morning. And your 
full statements will be included in the record.
    And at this moment, the vice chairman is still at the 
voting chamber, so I will call upon Senator Bond, if he has any 
statement to make.

                STATEMENT OF SENATOR CHRISTOPHER S. BOND

    Senator Bond. Thank you very much, Mr. Chairman. I asked 
him to be sure and start the timer, because I've got a lot to 
say, but I join with you in welcoming Secretary Donley and 
General Schwartz. We welcome you back to the subcommittee. 
Thank you for your service.
    Mr. Secretary, I especially want to thank you for attending 
the launch of the Senate Aerospace Caucus last week with 
Senator Murray.
    We believe the American aerospace industry has made our 
Nation the global leader in the civil aviation sector, and has 
helped produce the strongest military in the world. Despite its 
importance, not only to our military and to our economy, we all 
recognize the industry faces several challenges.
    And Senator Murray and I look forward to working with you 
and the rest of the Aerospace Caucus to elevate the awareness 
about the challenges and the efforts to protect a strong and 
competitive American aerospace industrial base.
    But, in addition to that, I am very much concerned about 
the ability of the Air National Guard to continue to operate 
amid the looming shortfalls and the age of our aircraft.
    Mr. Secretary and General, let me dive right in. I am 
afraid we are looking at a backdoor base realignment and 
closure (BRAC) on the Air Guard. In my view, no progress or 
proactive steps have been taken to address, substantively, the 
looming tactical airpower (TACAIR) bathtub in the Air Guard. 
That's first.
    All I continue to hear about are plans to reduce the size 
of the Air Force and the Air Guard. The Air Guard cannot be 
expected to give up aircraft and missions in the near term, 
only to be told they will eventually be provided with new, 
still undefined missions later, or be told that the Joint 
Strike Fighter replacements are coming, when we all know they 
will not be available in time. Such a leap of faith will result 
in the atrophy of a number of Air Guard units that won't be 
able to train or recruit without viable replacement missions or 
aircraft.
    But, I'm afraid that's exactly what we are doing. That's 
why I've labeled it, I believe appropriately, as a ``backdoor 
BRAC'' of Air National Guard units. This backdoor BRAC will 
threaten our ability to police our Nation's skies, a roll of 
the dice with our national security that I'm not willing to 
take, and I don't think anybody here should.
    Further, I don't subscribe to the overall line of thinking 
that we have to accept a smaller Air Force. It's my strong view 
the falsehood is being driven by a thorough--not by a thorough 
analysis of foreseeable threats and requirements, but by self-
fulfilling Pentagon budget studies and the extreme cost 
overruns and scheduling delays of a major program like JSF.
    Delays in cost growth from the JSF are sucking all the 
oxygen and resources out of other procurement needs. That 
results in our pilots flying aircraft that are, in many 
instances, older than they are. That ought to be unacceptable 
for the world's greatest superpower.
    In addition, the threat to the Air Guard and their critical 
missions to defend our Nation's skies, going down the current 
path is a threat to our defense industrial base. The Air Force 
long-term budget contains few new programs of the kind required 
to retain engineers and designers that will preserve our air 
dominance in the years to come.
    Secretary Gates killed or scaled back almost 50 major U.S. 
defense programs last year, but still poured billions more into 
a program that has had a Nunn-McCurdy breach--a big-time 
breach, a huge cost overrun on the JSF. Without other new 
programs, aerospace engineering and design skills will atrophy. 
With the atrophy of the defense industrial base which we've 
been seeing since the 1990s, innovation will be stifled and a 
lack of competition will lead to higher price tags for new 
platforms that will be procured in smaller numbers. Does that 
sound familiar?
    With the threats to our long-term and short-term security 
emanating from all over the globe, and for places where 4.5 
aircraft could meet the needs, I think it's important to 
maintain a quantitative edge, as well as it's important to 
maintain a quality edge. As capable as an F-22 is, it cannot be 
in three places at once.
    With that, Mr. Chair, I thank you and await the questions.
    Chairman Inouye. Senator Leahy.

                 STATEMENT OF SENATOR PATRICK J. LEAHY

    Senator Leahy. Well, thank you, Mr. Chairman.
    And because of the new Supreme Court nominee, I have to go 
to meet up with her. But, I am delighted to see Secretary 
Donley and General Schwartz here.
    I have some questions I will submit for the record, with 
the Chairman's----
    Chairman Inouye. It will be.
    Senator Leahy [continuing]. Permission, Mr. Secretary, on 
community basing, especially the initiative in Burlington, 
Vermont.
    I'm very interested in knowing the answers. I hope that you 
could call me with the answers, or that your staff could work 
with mine to provide a response.
    And, of course, the so-called fighter bathtub issue that's 
looming over the Guard--Senator Bond and I are cochairs of the 
Senate National Guard Caucus, and we're both concerned about 
that.
    So, with your permission, Mr. Chairman, I will submit those 
questions for the record.
    I'm delighted to see Secretary Donley here. We've had a 
chance to chat on other occasions. It's great to be here with 
him, and also with General Schwartz, who I've talked with on 
other occasions.
    Chairman Inouye. Thank you.
    Senator Dorgan.

                  STATEMENT OF SENATOR BYRON L. DORGAN

    Senator Dorgan. Mr. Chairman, thank you very much.
    I know that the Air Force has been through a couple of 
years of some--2 or 3 years of some real turbulence and 
difficulties and embarrassments, and so on. And I just want to 
observe that I think the Secretary and the Chief have taken 
action to provide some stability. And I think things are on 
track in the Air Force. I appreciate, very much, their 
leadership.
    And even while saying that, I don't want to cast aspersions 
on some of the others. I understand the captain of the ship is 
responsible for all that goes on in the ship, but the Air Force 
has had some good leadership over time, and I appreciate the 
willingness of the Secretary and the Chief to serve.
    Let me just say, I think the least surprising development 
in the last decade was: If you go to war and wage war for 8 
years halfway around the world, and don't pay for one penny of 
it, but just put it all on emergency spending, don't ask the 
taxpayers to pay for it; charge it all as emergency spending--
that someday you're going to run up against defense with no 
gate. And that's what Secretary Gates, I think, was saying the 
other day.
    This country can't continue to do that. Its fiscal policy 
is absurd. We know better than this. And so, it puts an 
enormous pinch on services like the Air Force.
    My colleague raised a point about the new fighter. I mean, 
I think it is the case that all of us are concerned about the 
per-unit costs of the planes we're buying. It's not just 
planes. It's every piece of equipment for the military. The 
per-unit cost continues to go up, up, and up. And that's a 
great concern.
    But, I think Secretary Gates is saying the right things 
publicly, and with some courage. We've got to address all of 
these issues. This will not be a time, going forward, like the 
time that we've just seen. And wherever--whatever someone 
needs, ``It's fine. We'll just pay for it and charge it.''
    Let me also say that I visited Creech Air Force Base last 
Friday, and had briefings on the unmanned aerial vehicles 
(UAVs). And it's very interesting to me, as it has always been, 
that that represents, in many ways, the future of the Air 
Force. I mean, we fly, as you--all of us know, fighter missions 
out of the most unusual places in this country, real time, with 
unmanned aerial vehicles, halfway around the world, with the 
most sophisticated satellite, and so on. It's pretty 
unbelievable.
    And I also think that much of what we're going to be 
discussing, going forward, is what this new paradigm--this new 
unmanned aerial vehicle system means, in terms of how we fight, 
how we train, and all of those issues.
    And I just want to say, General Schwartz, the folks that 
you have at Creech, the commander and others, are really first-
rate. And I had a chance to observe those who are flying the 
UAVs, and I came away mightily impressed, as I always do, but 
especially, I think--it's the first place where we've had these 
unmanned aerial vehicle operations, I think, starting maybe 8, 
9 years ago. But, it's an extraordinary place.
    So, I have a few questions. I'm not sure I'm going to be 
able to stay for all of it, today. But, I thank you, Mr. 
Chairman, for inviting the Secretary and the Chief.
    Chairman Inouye. Thank you.
    The vice chairman.

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Mr. Chairman, thank you very much for 
convening the hearing.
    I join you in welcoming our distinguished witnesses at this 
hearing. They have very important responsibilities in managing 
the Air Force and making sure that we are protecting our 
national security interests with the best there is. And we 
appreciate that very much.
    Thank you.
    Chairman Inouye. Thank you.
    Senator Murray.

                   STATEMENT OF SENATOR PATTY MURRAY

    Senator Murray. Mr. Chairman, thank you so much for having 
this hearing.
    And, Secretary Donley, I join with Senator Bond in thanking 
you for joining us for our first meeting of the Aerospace 
Caucus. It's extremely important that we begin to look at long-
term planning to make sure that we maintain our aerospace 
industry in this country, for all the reasons that are 
important to our military, as well as our economy and in the 
future. And I appreciate your participation in that.
    I do have a number of questions, and I will use those 
during my question time.
    And again, welcome, to both of you.
    And thank you for having this hearing.
    Chairman Inouye. Thank you.
    And now, Mr. Secretary.

              SUMMARY STATEMENT OF HON. MICHAEL B. DONLEY

    Mr. Donley. Thank you, Mr. Chairman, members of the 
subcommittee.
    It is truly an honor to be here today representing almost 
680,000 Active Duty, Guard, and Reserve airmen and Air Force 
civilians. I'm also honored to be here with General Schwartz, 
who has been a tremendous partner and a tireless public 
servant, especially over the past couple of years, in addition 
to a very long and distinguished career, prior to this 
assignment.
    I'm pleased to report, today, that America's Air Force 
continues to make progress in strengthening our contributions 
as part of the joint team and the overall excellence that is 
the hallmark of our service.
    We're requesting $150 billion in our baseline budget, and 
$20.8 billion in the overseas contingency operations 
supplemental appropriation to support this work.
    In the past year, and planning for the future, we've 
focused on balancing our resources and risk among the four 
objectives outlined by Secretary Gates in the 2010 QDR.

                      FOUR OBJECTIVES IN 2010 QDR

    First, as the chairman noted, we must prevail in today's 
wars. Your Air Force understands the gravity of the situation 
in Afghanistan. And, as we continue to responsibly draw down 
our forces in Iraq, we are committed to rapidly fielding the 
needed capabilities for the joint team, such as surging ISR 
assets into the theater and maximizing air mobility to 
accelerate the flow of forces into Afghanistan.
    Second, we must prevent and deter conflict across the 
spectrum of warfare. And as we assess potential implications of 
the Nuclear Posture Review (NPR) and the new Strategic Arms 
Reduction (START) Treaty, we continue concentrating on the 
safety, security, and sustainment of two legs of the Nation's 
nuclear arsenal.
    Last year, we stood up the Air Force Global Strike Command, 
and we now have realigned our intercontinental ballistic 
missile (ICBM) and nuclear capable bomber wings under the 
control of a single commander. We also realigned 
responsibilities to the Nuclear Weapons Center to consolidate 
the management of all our nuclear weapon sustainment 
activities.
    And to increase our engagement across the world, we're 
building partner capacity, in Afghanistan and Iraq especially, 
and developing a training framework that emphasizes light 
attack and mobility that can benefit other nations.
    Third, we must prepare to defeat adversaries and to succeed 
in a wide range of conflicts. We need to ensure we're providing 
the right capabilities with our strategic airlift and ISR 
platforms, and ensure that our space-based assets continue to 
deliver needed capabilities into the future.
    In addition, the last two decades of sustained operations 
have strained our weapons systems. We continue to determine 
which aircraft we will modernize and sustain, and which we must 
retire and recapitalize. One of our primary efforts includes 
retiring and recapitalizing many of our legacy fighters and 
tankers, and replacing them with the F-35 and the KC-X.
    These decisions require tough choices as well as the 
ability to quickly field systems that meet warfighter needs at 
an affordable price. Because acquisition underpins this effort, 
we're continuing our work to recapture excellence in this area, 
as well. And in the past year, we've made significant strides 
in reforming our internal processes. We've added more program 
executive officers and are growing our acquisition workforce by 
several thousand professionals over the next 5 years.
    Finally, we need to preserve and to enhance our All 
Volunteer Force. Airmen are our most valuable resource, and 
they have performed superbly in every mission and deployment 
they've undertaken.

                      YEAR OF THE AIR FORCE FAMILY

    With the understanding that their families serve alongside 
them, in July of last year, the Chief of Staff, the chief 
master sergeant of the Air Force, and I began a year-long focus 
on our men and women, and their families. This ``Year of the 
Air Force Family'' recognizes their sacrifices and looks to 
determine how we can better support, develop, house, and 
educate them. As this effort draws to a close later this 
summer, we're determining which programs are performing well, 
and where we can do better.
    Mr. Chairman, your Air Force is performing exceptionally 
well in supporting the current fights; responding to growing 
demands and shifting personnel priorities on short notice. But, 
we're increasingly stressed inside the continental United 
States. Rebuilding nuclear expertise will require continued 
determination and patience. And we are taking more risk in 
nondeployed force readiness. And, as you mentioned, Mr. 
Chairman, we're facing significant challenges in modernization 
and in our infrastructure.
    At the same time, however, we are developing and fielding 
new technologies and capabilities that bode very well for our 
future. I can tell you, after a recent trip to the U.S. Central 
Command area, that we are recruiting and training some 
incredible airmen. General Schwartz and I can, again, confirm 
that the Air Force is blessed with an outstanding civilian and 
military leadership team to help us address these challenges.
    Our priorities are clear. We must make the most of those 
resources available to balance capability against risk, 
balancing winning today's wars against preparing for 
tomorrow's. We need to prevail in today's fights, and we 
continue to add capability in every way possible to help ensure 
the success of ongoing conflicts. We must prevent and deter 
future conflict, where we can, and continue to be prepared for 
and succeed across this full spectrum of conflict. And finally, 
we must continue to preserve our airmen and their families, for 
they are truly our hedge against an uncertain future.

                           PREPARED STATEMENT

    We're very grateful for the subcommittee's support in this 
work, and we look forward to working with you and to answering 
your questions today.
    Thank you, Mr. Chairman.
    Chairman Inouye. Thank you very much, Mr. Secretary.
    [The statement follows:]
              Prepared Statement of Hon. Michael B. Donley
    The Air Force Posture Statement presents our vision of Global 
Vigilance, Reach and Power as a vital component of the Joint team, 
defending our National interests, and guided by our core values of 
Integrity First, Service Before Self, and Excellence in All We Do.
                              introduction
    Today, the United States confronts a dynamic international 
environment marked by security challenges of unprecedented diversity. 
Along with our Joint partners, the Air Force will defend and advance 
the interests of the United States by providing unique capabilities to 
succeed in current conflicts while preparing to counter future threats 
to our national security. Over the last year, the Air Force made great 
strides in strengthening the precision and reliability that is our 
hallmark.
                            strategic focus
    This year offers an opportunity to fully integrate our Service 
posture with a new National Security Strategy, the Department of 
Defense Quadrennial Defense Review, and strategic reviews of the 
Nation's space, nuclear, and ballistic missile defense postures. 
Balance is the defining principle linking this budget request to our 
strategic guidance.
    In the 2010 Quadrennial Defense Review, the Secretary of Defense 
established four U.S. defense objectives to guide our current actions 
as well as to plan for the future: prevail in today's wars, prevent and 
deter conflict, prepare to defeat adversaries and succeed in a wide 
range of contingencies, and preserve and enhance the all-volunteer 
force. In accordance with this guidance, the Air Force developed the 
2011 budget request to enhance our capabilities to meet these 
objectives, while balancing risk appropriately. As the future security 
environment will require a range of agile and flexible capabilities, 
investments for today's conflict will also support our efforts to 
prepare, prevent, and prevail, and preserve well into the future.
    Prevail in Today's Wars.--Our investments in intelligence, 
surveillance, and reconnaissance, as well as airlift, command and 
control, and building partner capacity reinforce the prominence of this 
priority in our budget request. In addition, nearly 30,000 deployed 
Airmen daily provide key capabilities in direct support of combat 
operations.
    Prevent and Deter Conflict.--The Air Force made significant 
resource and cultural investments in reinvigorating our portion of the 
Nation's nuclear deterrence over the past 18 months. We are now 
institutionalizing these successes to ensure the highest standards 
across the nuclear enterprise. Our initial investments in a family of 
long-range strike capabilities mark our commitment to sustaining power 
projection capabilities for the next several decades.
    Prepare to Defeat Adversaries and Succeed in a Wide Range of 
Contingencies.--This priority directly reflects the Air Force emphasis 
on balancing our commitments to today's conflicts against preparing for 
mid- and long-term risks. Awarding a contract this year to recapitalize 
our aging tanker force is our top acquisition priority. Similarly, the 
F-35 will be the workhorse of the fighter force for decades to come. 
Our investment in this program is timed with other modernization 
initiatives and divestment plans to ensure sufficient capabilities are 
available to deter and defeat potential enemies.
    Preserve and Enhance the All-Volunteer Force.--Preserving and 
enhancing our all-volunteer force provides the foundation required for 
our flexible and agile posture. This budget reflects a commitment to 
enhancing our force through education and training, while also 
bolstering the overall quality of life of Airmen and their families.
                         strategy to resources
    As we prepared the budget request described by this Posture 
Statement, we structured our resource choices by balancing the twelve 
Air Force Core Functions across the near- and long-term. When 
considered together, the Core Functions encompass the full range of Air 
Force capabilities, and serve as the framework for this Posture 
Statement. While this document describes the core functions 
individually, we recognize their inherent interdependence within not 
just the Air Force, but also within the Joint force and the whole of 
government.
    Air Force Core Functions.--Nuclear deterrence operations; air 
superiority; space superiority; cyberspace superiority; global 
precision attack; rapid global mobility; special operations; global 
integrated ISR; command and control; personnel recovery; building 
partnerships; and agile combat support.
                     nuclear deterrence operations
    Since its inception, the Air Force has served as a proud and 
disciplined steward of a large portion of the Nation's nuclear arsenal. 
We steadfastly maintain and secure nuclear weapons to deter potential 
adversaries, and to assure our partners that we are a reliable force 
providing global stability.
    The first Air Force priority during the last 2 years has been to 
reinvigorate the stewardship, accountability, compliance, and precision 
within the nuclear enterprise. This mission demands perfection. Last 
year we reorganized our nuclear forces, consolidating responsibility 
into a clear chain of command. All nuclear operations are under the 
command of the Air Force Global Strike Command and all sustainment 
activities are controlled by the Air Force Nuclear Weapons Center. We 
also added a fourth B-52 squadron to enhance nuclear surety through 
greater mission focus. We continued these advancements in fiscal year 
2010 by reassigning Intercontinental Ballistic Missile (ICBM) and 
nuclear bomber forces to Air Force Global Strike Command as it proceeds 
toward full operational capability.
    The fiscal year 2011 budget request continues to invest in 
sustaining the Air Force's ICBM and bomber fleets. We will invest $295 
million across the FYDP to replace fuzing mechanisms, and to sustain 
test equipment and environmental control systems for the aging, but 
capable, Minuteman III ICBM weapon system.
    As we begin work to develop a future Long Range Strike capability, 
we recognize the need to continue investing in our legacy bomber 
fleets, including nearly $800 million for modernization. This budget 
request provides the B-52, initially designed in the early 1950s, with 
an internal precision-guided weapons capability, a new radar, and a 
modern and effective anti-skid system. This request funds modernization 
of B-2 analog defensive systems to ensure continued survivability 
against increasingly capable air defense systems. Additionally, the UH-
1N replacement program supporting missile launch complexes is on track 
and we anticipate initial operating capability by fiscal year 2015.
                            air superiority
    Air superiority is a necessary precondition for most U.S. military 
operations. American ground forces have operated without fear of enemy 
aircraft since 1953. Although we operate in uncontested airspace in 
current conflicts, we cannot assume this will be the case in the 
future. The emergence of modern air defenses challenges the ability of 
the Air Force to achieve air superiority. Potential adversaries are 
leveraging readily accessible technologies by modifying existing 
airframes with improved radars, sensors, jammers, and weapons. In 
addition, several nations are pursuing fifth-generation aircraft 
capable of all-aspect, low-observable signatures, and fully integrated 
avionics and sensors. Adversary nations are also turning to advanced 
surface-to-air missiles to augment or even substitute for aircraft 
modernization efforts. The proliferation of these sophisticated and 
increasingly affordable weapons presents an area denial capability that 
challenges our legacy fleet. As the range of potential threats evolves, 
the Air Force will rely on the F-22 Raptor as the workhorse of the air 
superiority fighter force for the foreseeable future. Complementing our 
187 modernized F-22s, we will continue to rely on F-15C/D aircraft to 
provide an important component of our air superiority capability.
    Our fiscal year 2010 budget included plans to accelerate the 
retirement of some legacy fighter aircraft to pave the way for a 
smaller but more capable fighter force. As we work with the Congress to 
execute this important plan, we continue to aggressively modernize our 
air superiority fleet, including upgrading fielded F-22s to ensure 
fleet commonality with current deliveries. Additionally, we began 
modernizing 176 F-15Cs with the new APG-63(v)3 Active Electronically 
Scanned Array (AESA) radar. Along with these modifications, we are 
continuing the development and procurement of the AIM-9X and AIM-120D 
air-to-air missiles.
    The fiscal year 2011 budget requests $12.5 billion in the FYDP to 
sustain America's air superiority advantage. To continue F-22 
modifications, this request includes $1.34 billion to continue fleet 
commonality upgrades, improving reliability and maintainability, and 
adding training enhancements for the fleet. Building on the multi-role 
nature of our most advanced aircraft, this request also includes $1.19 
billion to add precision attack capabilities such as the Small Diameter 
Bomb. The Air Force will also continue the development and procurement 
of air-to-air munitions and defenses for the F-22 such as the AIM-9X, 
AIM-120D, and electronic warfare capabilities. To sustain our legacy 
aircraft viability, we included $92 million to continue the upgrades 
and modifications to the new F-15 AESA radar. Recognizing that 
Electronic Warfare remains an integral part of air superiority, we 
request $251 million in fiscal year 2011 for upgrades to the EC-130H 
Compass Call fleet. This request includes the conversion of an 
additional EC-130H, as well as a combined flight deck and mission crew 
simulator to increase training capacity.
                           space superiority
    America's ability to operate across the spectrum of conflict relies 
heavily on space capabilities developed and operated by the Air Force. 
We support the Joint force by developing, integrating, and operating in 
six key mission areas: missile warning; space situational awareness 
(SSA); military satellite communications; positioning, navigation and 
timing; space access; and weather.
    To enhance space support to the Joint force, we are increasing 
communications capability in fiscal year 2010 through two satellite 
communications programs, the Wideband Global Satellite (WGS) program to 
replace the Defense Satellite Communications System (DSCS), and 
Advanced Extremely High Frequency system for protected communications. 
We launched the second and third WGS satellites in fiscal year 2010; 
each WGS satellite provides the equivalent capacity of the entire 
legacy DSCS constellation. Additionally, the second on-orbit Space-
Based Infrared System Highly Elliptical Orbit payload was fully 
certified by United States Strategic Command to perform strategic 
missile warning. Finally, spacelift remains the backbone for national 
security space with a record 64 consecutive successful missions.
    The fiscal year 2011 budget request for $10.9 billion will improve 
our stewardship of space with investment in space and space-related 
support systems. With these resources, we will field several first-of-
their-kind systems--Global Positioning System Block IIF, Space Based 
Space Surveillance System, and Advanced Extremely High Frequency 
satellite communications system. This request proposes $1.2 billion for 
the Evolved Expendable Launch Vehicle program, $1.8 billion for the 
Space Based Infrared System, and $1.3 billion for GPS. We also included 
$135 million for Joint Space Operation Center Mission System to improve 
SSA capabilities, and $94 million for the Operationally Responsive 
Space program to pursue innovative capabilities that can be rapidly 
developed and fielded in months rather than years. We request $577 
million to fully fund WGS to meet combatant commander bandwidth 
requirements. Moreover, we will continue to maintain SSA ground-based 
systems and explore space-based capabilities to ensure our continued 
freedom to operate in this domain.
                         cyberspace superiority
    Cyber threats ranging from individual hackers to criminal 
organizations to state-sponsored cyber intrusions can challenge access 
to, and use of, this domain. Although the freedom to operate in the 
cyber domain is a precondition for our increasingly networked force, 
many of our potential adversaries are similarly adopting information-
enabled technology, rendering them vulnerable to cyber attack as well. 
Threats to freedom of access to the cyber domain present both 
challenges and opportunities.
    In fiscal year 2010 we continued the development and 
institutionalization of cyberspace capabilities and integration into 
the Joint cyberspace structure. The newly activated 24th Air Force, the 
first Numbered Air Force dedicated to cyberspace operations, recently 
achieved initial operational capability and has been designated the Air 
Force component for the sub-unified U.S. Cyber Command. We are also 
focusing on cyber personnel by normalizing the cyber career path and 
adding technical education courses.
    The fiscal year 2011 budget request reflects a continued commitment 
to cyber superiority. We request $31 million for expanded rapid cyber 
acquisition capabilities to keep pace with dynamic adversaries and 
fast-paced advances in technology. In support of the national cyber 
effort, this budget request dedicates $104 million to support 
operations and leased space for headquarters staff at the sub-unified 
U.S. Cyber Command. Additionally, we propose adding $15 million and 
additional manpower over the next 5 years to increase the investigative 
and law enforcement aspects of cyberspace defense.
                        global precision attack
    Global Precision Attack is the ability to hold any target at risk, 
across the air, land, and sea domains. Many of our global precision 
attack forces are meeting the current requirements of ongoing 
contingency operations by performing precision strike and intelligence, 
surveillance, and reconnaissance (ISR) support roles. In the longer 
term, however, the proliferation of area denial and anti-access 
capabilities will challenge the ability of current fourth-generation 
fighters and legacy bombers to penetrate contested airspace.
    The Air Force budget request in fiscal year 2010 recognized these 
developments and continued improvements to aircraft and weapons 
capabilities. This year, we will take delivery of 10 F-35s for 
developmental testing and to train test pilots. We are also modernizing 
legacy fighter aircraft to maintain sufficient capability and capacity 
until the F-35 fleet is fully operational, and are continuing to 
develop programs for preferred air-to-ground weapons. Upon completion 
of the required reports to the Congress later this year, we will 
implement the planned reduction of 257 legacy fighters. We have had 
mixed results in test drops of the Massive Ordnance Penetrator; 
however, we are closely monitoring the progress of this important 
capability, and future successes likely will result in a reprogramming 
request to accelerate its development in fiscal year 2010. Finally, 
continued development of the second increment of the Small Diameter 
Bomb will give the Air Force even greater capability and flexibility.
    Our $14.4 billion Global Precision Attack request for fiscal year 
2011 reflects a balanced approach across the portfolio, prioritizing 
investment in fifth-generation aircraft while sustaining legacy 
platforms as a bridge to the F-35.
F-35 Joint Strike Fighter
    The multi-role F-35 is a critical element of the Air Force's future 
precision attack capability. In addition to complementing the F-22's 
world class air superiority capabilities, the F-35 is designed to 
penetrate air defenses and deliver a wide range of precision munitions. 
This modern, fifth-generation aircraft brings the added benefit of 
increased allied interoperability and cost-sharing across services and 
partner nations.
    Working in close collaboration with DOD, the F-35 program team 
realized a number of accomplishments over the last year, to include the 
first flight of the first optimized conventional take-off and landing 
(CTOL) Joint Strike Fighter (JSF) variant--aircraft AF-1.
    Despite these important accomplishments, the program is 
experiencing program challenges as it transitions from development to 
production. Last year, DOD conducted multiple, independent reviews to 
assess the impact of these challenges on the program's cost, schedule, 
and technical performance. The results were consistent with a previous 
fiscal year 2008 DOD independent assessment that projected a cost 
increase and schedule slip.
    The challenges being experienced are not unusual for this phase of 
a major program. However, we are disappointed by the contractor's 
failure to deliver flight test aircraft as scheduled during the past 
year. The result of the late deliveries will be a delay in the flight 
test program. Although there appear to be recent improvements, the 
contractor also has been experiencing assembly inefficiencies that must 
be corrected to support higher production rates.
    In response to the challenges still facing the program and the 
findings of the independent reviews, we have taken numerous management 
actions to reduce risk. Most significantly we have determined that it 
is prudent to adjust the schedule and funding to levels consistent with 
the most recent independent estimates. These cost and schedule 
adjustments require that we initiate the process to confirm the program 
is in breach of the Nunn-McCurdy Act criteria, and details will be 
reported later this spring.
    The F-35 is our largest and most important program and we are 
dedicated to successfully delivering these aircraft to both the United 
States and to our international partners in this effort. The Air Force 
fiscal year 2011 budget includes $5.6 billion for continued development 
and procurement of 22 CTOL production aircraft.
Long-range Strike
    Investments in our B-52 and B-2 fleets sustain nuclear deterrence 
operations as well as conventional global precision attack capabilities 
in the near-term, but we are adding research and development funds to 
accelerate development of enhanced long-range strike capabilities. 
Building upon insights developed during the Quadrennial Defense Review 
(QDR), the Secretary of Defense has ordered a follow-on study to 
determine what combination of Joint persistent surveillance, electronic 
warfare, and precision-attack capabilities will be best suited to 
support U.S. power projection operations over the next two to three 
decades. The study will examine both penetrating platforms and stand-
off weapon options. As part of this assessment, the Air Force is 
reviewing options for fielding survivable, long-range surveillance and 
strike aircraft as part of a comprehensive, phased plan to modernize 
the bomber force. Additionally, the Navy and the Air Force are 
cooperatively assessing alternatives for a new Joint cruise missile. 
Finally, the Department of Defense also plans to analyze conventional 
prompt global strike prototypes and will assess the effects that these 
systems, if deployed, might have on strategic stability.
                         rapid global mobility
    The Air Force is committed to providing unmatched airlift and air 
refueling capability to the nation. Air Force mobility forces provide 
an essential deployment and sustainment capability for the Joint force, 
delivering personnel, equipment, and supplies necessary for missions 
ranging from conflict to humanitarian relief.
    We are releasing the Request for Proposal for a KC-X replacement 
tanker in early 2010, and will aggressively work toward awarding a 
contract later this year. Additionally, we completed the successful 
operational testing of the C-5 Reliability Enhancement and Re-engine 
Program (RERP) and will induct two more C-5Bs into low-rate initial 
production. For tactical airlift, we recently concluded a test of our 
Direct Support airlift concept and continue to work with the Army to 
rapidly and smartly transfer the C-27J program to the Air Force.
    The fiscal year 2011 budget reflects a balanced approach across the 
tanker and airlift portfolios, which prioritizes recapitalization of 
the oldest aircraft while ensuring the continued viability of the 
legacy fleet. Investments in tanker capability are heavily weighted 
towards the KC-X program--our top acquisition priority--and represent 
$11.7 billion in the FYDP. However, while moving aggressively to 
recapitalize the tanker fleet, we must also ensure the continued health 
of legacy aircraft. This budget request includes $680 million in the 
FYDP for airspace access modifications and sustainment of the KC-10 and 
KC-135 fleets.
    The Air Force Airlift budget request is focused on meeting mobility 
requirements in the most cost efficient way possible, recapitalizing 
only the oldest airlift aircraft. To ensure continued access to all 
airspace, this budget continues to modernize and modify C-5s and C-
130Hs through Avionics Modernization Programs, and upgrades C-5B/Cs 
with RERP. To complete the recapitalization of C-130Es, we request $1.8 
billion over the next 5 years to procure 24 C-130Js. Additionally, in 
accordance with the preliminary results of the Mobility Capabilities 
and Requirements Study 2016, and subject to authorization by the 
Congress, we intend to retire some of the oldest, least capable C-5As 
and C-130H1s. We have also requested $38.9 million in fiscal year 2011 
to transition from C-17 procurement to sustainment.
                           special operations
    Air Force special operations capabilities play a vital role in 
supporting U.S. Special Operations Command (USSOCOM) and geographic 
combatant commanders. As the Department of Defense increasingly 
develops irregular warfare capabilities, the Air Force is investing in 
special operations airlift, close air support, foreign internal 
defense, and intelligence, surveillance, and reconnaissance 
capabilities.
    In fiscal year 2010 we focused on growing and recapitalizing the 
special operations aircraft inventory. By the end of the fiscal year, 
three MC-130W Combat Spear aircraft will be modified with the Precision 
Strike Package to provide additional armed overwatch capability for SOF 
forces. Additionally, we will deliver the 16th of 50 CV-22s.
    This fiscal year 2011 budget proposal includes $6.7 billion through 
the FYDP to continue growing and recapitalizing the Air Force Special 
Operations Command (AFSOC). In fiscal year 2011 we will procure five 
additional CV-22s and five MC-130Js for $1.1 billion. This request also 
includes $1.6 billion in the FYDP to start recapitalizing our AC-130H 
aircraft. We will rapidly recapitalize these aging aircraft through the 
procurement of 16 additional MC-130Js, modified with the proven 
Precision Strike Package. In fiscal year 2011 we will also increase 
AFSOC's manpower by 258 personnel by fiscal year 2015 to support the 
addition of 16 fixed-wing mobility and two rotary-wing aircraft.
         global intelligence, surveillance, and reconnaissance
    The Air Force continues to rapidly increase its Intelligence, 
Surveillance, and Reconnaissance (ISR) capability and capacity to 
support combat operations. Air Force ISR provides timely, fused, and 
actionable intelligence to the Joint force, from forward deployed 
locations and globally distributed centers around the globe. The 
exceptional operational value of Air Force ISR assets has led Joint 
force commanders in Iraq, Afghanistan, and the Horn of Africa to 
continually increase their requests for these forces. To help meet this 
demand, the Air Force currently has more than 90 percent of all 
available ISR assets deployed.
    In fiscal year 2010, we are quantitatively and qualitatively 
increasing aircraft, sensors, data links, ground stations, and 
personnel to address emergent requirements. Over the last 2 years, the 
Air Force increased the number of remotely piloted aircraft (RPA) 
fielded by 330 percent. We invested in a Wide Area Airborne 
Surveillance (WAAS) system for new and existing MQ-9s to provide up to 
50 video streams per sensor within a few years. By the summer of fiscal 
year 2010, a quick reaction capability version of WAAS known as Gorgon 
Stare will provide 10 video streams per MQ-9. Any ROVER-equipped ground 
force will be able to receive any of these feeds. We also added four 
RQ-4s, and graduated our first class of RPA-only pilots. Early in 
fiscal year 2010, we proposed a shift in the nomenclature from 
``unmanned aircraft systems'' (or UAS) to ``remotely piloted aircraft'' 
as part of normalizing this capability within the Air Force manpower 
structure and culture. We will also maintain our current JSTARS-based 
Ground Moving Target Indicator (GMTI) capability as we begin an 
Analysis of Alternatives to determine the future of GMTI.
    To complement remotely piloted capabilities, we are deploying MC-
12W Project Liberty aircraft to the theater as fast as they can be 
delivered from the factory. This program progressed from ``concept to 
combat'' in a record 9 months, and has a deployed maintenance 
availability rate well above 90 percent.
    Because analysis transforms data into actionable intelligence, we 
are shifting approximately 3,600 of the 4,100 manpower billets 
recaptured from the early retirement of legacy fighters to support RPA 
operations, and the processing, exploitation, and dissemination of 
intelligence collected by manned and remotely piloted aircraft. We also 
doubled the number of ISR liaison officers assigned to deployed ground 
forces to ensure the seamless integration of ISR collection and 
exploitation assets.
    Our fiscal year 2011 budget proposal reflects the Joint force 
emphasis on ISR capacity, and builds on progress made in fiscal year 
2010. The Air Force will reach 50 RPA continuous, combat air patrols 
(CAPs) in theater by the end of fiscal year 2011. The budget request 
increases MC-12W funding to normalize training and basing posture, adds 
Wide Area Airborne Surveillance capability, and increases the total 
number of our RPA platforms to enable fielding up to 65 CAPs by the end 
of fiscal year 2013. As we request additional RQ-4 Global Hawks for 
high altitude ISR, we also intend to continue operating the U-2 at 
least throughout fiscal year 2013 as a risk mitigation effort. We will 
sustain our ISR processing, exploitation, and dissemination in the 
Distributed Common Ground System, providing critical distributed 
analysis without having to forward deploy more forces.
                          command and control
    Theater-wide command and control (C\2\) enables efficient and 
effective exploitation of the air, space, and cyber domain. The Air 
Force maintains significant C\2\ capabilities at the theater level. 
However, the highly decentralized nature of irregular warfare also 
places increased demands on lower echelons of command. Matching the 
range and flexibility of air, space, and cyberspace power to 
effectively meet tactical requirements requires a linked C\2\ structure 
at all echelons.
    This year, we are expanding our efforts to provide C\2\ at the 
tactical, operational, and strategic levels. In fiscal year 2011, the 
Air Force is requesting $30 million across the FYDP to fund equipment 
and assured communications for U.S. Strategic Command's Distributed 
Command and Control Node (DC\2\N), U.S. Northern Command's National 
Capital Region--Integrated Air Defense (NCR-IADS), and U.S. Africa 
Command's expanding air operations center. Tactically, we are 
increasing training pipelines for Joint Terminal Attack Controllers 
(JTACs), establishing an Air Liaison Officer career field, fielding 
advanced video downlink capabilities, and adding airborne radio and 
datalink gateways to improve the connectivity of air support operations 
centers and JTACS.
    In fiscal year 2011, the Air Force request also includes 
modernization and sustainment of both airborne and ground-based C\2\ 
systems. For Air Force airborne C\2\, we request $275 million for the 
E-3 Block 40/45 upgrade program. This upgrade modernizes a 1970s-era 
computer network, eliminates many components that are no longer 
manufactured, and adds avionics to comply with Global Air Traffic 
Management standards. To improve ground-based tactical air control 
operations, we are increasing manpower in the control and reporting 
centers and investing $51.5 million with the U.S. Marine Corps for a 
follow-on ground-based radar capability supporting air and missile 
defense. This Three-Dimensional Expeditionary Long-Range Radar (3DELRR) 
will be the future long-range, ground-based sensor for detecting, 
identifying, tracking, and reporting aircraft and missiles.
                           personnel recovery
    Personnel recovery (PR) remains an important commitment the Air 
Force makes to the Joint force. The increased utilization of military 
and civilian personnel in support of Overseas Contingency Operations 
(OCO) has dramatically increased the number of individuals who may find 
themselves isolated. This has in-turn created an increasing demand for 
Air Force rescue forces beyond the combat search and rescue mission. 
Air Force PR forces are fully engaged in Iraq, Afghanistan, and the 
Horn of Africa, accomplishing crucial medical and casualty evacuation 
missions for U.S. and Coalition military and civilian personnel.
    This year, we will continue to surge critical personnel recovery 
capability to the field, and will start replacing the aging fleet. To 
bring the fleet back to its original size of 112 HH-60Gs, we will put 
the first four operational loss replacement aircraft on contract. 
Additionally, we will deliver the first two HC-130J tanker aircraft, 
starting the replacement of the 1960s-era HC-130P fleet.
    The fiscal year 2011 budget request continues the replacement of 
operational losses and modernization of aging equipment. This request 
funds the last eight HH-60G operational loss replacement aircraft by 
the end of fiscal year 2012. Additionally, we begin the process of 
recapitalizing the remaining fleet with the inclusion of $1.5 billion 
to procure 36 HH-60G replacement aircraft in the FYDP. We also continue 
our recapitalization of the HC-130P/N fleet with HC-130J aircraft. 
Finally, we request $553 million in funding throughout the FYDP for the 
Guardian Angel program, which will standardize and modernize mission 
essential equipment for our pararescuemen.
                         building partnerships
    The Air Force continues to seek opportunities to develop 
partnerships around the world, and to enhance long-term capabilities 
through security cooperation. In the U.S. Central Command (USCENTCOM) 
area of responsibility, deployed Airmen are working with our Afghan and 
Iraqi partners to build a new Afghan National Army Air Corps and Iraqi 
Air Force to strengthen the ability of these nations to uphold the rule 
of law and defend their territories against violent, non-state actors. 
We are also working to further partnerships with more established 
allies with programs like the Joint Strike Fighter. Similarly, the 
third and final C-17 procured under the 12-nation Strategic Airlift 
Capability program was delivered in October 2009, helping to address a 
chronic shortage of strategic airlift among our European Allies.
    In fiscal year 2011, we will expand our capabilities to conduct 
building partner capacity (BPC) operations with partner air forces. 
Past experience has shown us that we are more effective trainers when 
we operate the same platforms as our partners. To increase our 
interoperability, the Air Force requests resources to prepare to field 
the Light Mobility Aircraft (LiMA) in fiscal year 2012 and the Light 
Attack/Armed Reconnaissance (LAAR) aircraft in fiscal year 2013. These 
aircraft will provide effective and affordable capabilities in the two 
most critical mission areas for partner air forces: lower-cost airlift 
and light strike/reconnaissance training. Additionally, we will 
continue to foster BPC capability in our Contingency Response Groups. 
This request also includes $51 million to continue investing in the 
Strategic Airlift Capability program. Finally, we programmed $6.4 
million annually across the FYDP for PACIFIC ANGEL humanitarian 
assistance missions in support of U.S. Pacific Command theater 
objectives.
                          agile combat support
    Agile combat support underpins the entire Air Force, from the 
development and training of Airmen to revitalizing processes in the 
acquisition enterprise. In terms of core functions, agile combat 
support reflects the largest portion of the Air Force budget proposal, 
totaling approximately $42 billion for personnel and training, 
installation support, logistics, and acquisition.
    Airmen and Families.--Over the last year we stabilized end 
strength. Retention rates have exceeded expectations, but we continue 
to progress toward our end strength goal of 332,200 active duty Airmen. 
In addition to stabilizing our end strength, we are also modernizing 
our training programs and aircraft. To better partner with the Joint 
and Coalition team, we will provide our Airmen with cultural and 
regional expertise and appropriate levels of foreign language training. 
We are also expanding foreign language instruction for officer 
commissioning programs at the Air Force Academy and in ROTC, 
encouraging cadets to take foreign language coursework and participate 
in language immersion and study programs abroad. This expanded training 
includes enhanced expeditionary skills training to prepare Airmen for 
deployment. Finally, as part of our effort to modernize training 
systems, we have established a program office to start the process of 
replacing the T-38 trainer with an advanced trainer capable of teaching 
pilots to fly the world's most advanced fighter aircraft.
    Recognizing that family support programs must keep pace with the 
needs of Airmen and their families, we initiated the Year of the Air 
Force Family in July 2009. We plan to add enough capacity to our child 
development centers to eliminate the child care space deficit by the 
end of fiscal year 2012, provide better support to exceptional family 
member programs, and add 54 school liaison officers to Airmen and 
Family Readiness Centers to highlight and secure Air Force family needs 
with local school administrators.
    The Air Force continues to expand its efforts to improve the 
resiliency of Airmen and their families before and after deployments. 
This year we expanded deployment-related family education, coupling it 
with psychological screening and post-deployment health assessments. 
Additionally, we offer access to chaplains who provide pastoral care, 
and counselors and mental health providers trained in post-traumatic 
stress treatment at every base. We plan to further enhance support in 
2010 by promoting and encouraging mental health assistance, and by 
providing at-risk deployers with tailored and targeted resiliency 
programs. To support this increased effort, we will enhance mental 
healthcareer field recruiting and retention through special pays and 
targeted retention bonuses.
    Acquisition Excellence.--The Air Force continues to make progress 
within the Acquisition Improvement Plan. In 2009, we hired over 2,000 
personnel into the acquisition workforce and continued contractor-to-
civilian conversions. The Air Force institutionalized early 
collaboration with acquisition system stakeholders, senior acquisition 
leadership certification of requirements, cost estimation improvements, 
and an improved budgeting process to enhance the probability of program 
successes. The multi-functional independent review teams conducted over 
113 reviews, ensuring acquisition selections are correct and 
defendable. As part of our recent acquisition reorganization, we 
created 11 new program executive officer positions to reduce the span 
of control and increase their focus on program execution. These 
enhancements demonstrate our commitment to restoring the public's trust 
in the Air Force's ability to acquire the most technologically advanced 
weapon systems at a competitive cost. In the near-term, this more 
rigorous approach to acquisition is likely to identify problems and 
programmatic disconnects. In the medium- and long-term, it should yield 
significant improvements in Air Force stewardship of taxpayer 
resources.
    Energy.--As part of our institutional effort to consider energy 
management in all that we do, the Air Force requests $250 million for 
energy and water conservation projects in fiscal year 2011. This 
investment will ensure we meet the President's efficiency goals by 
2015. In fiscal year 2010, the Air Force finalized an energy plan that 
directs the development and use of reliable alternative energy 
resources, and reduces the life-cycle costs of acquisition programs. 
Additionally, the plan recognizes that aviation operations account for 
over 80 percent of the energy used by the Air Force each year, and 
directs Airmen and mission planners to continue managing aviation fuel 
as an increasingly scarce resource.
    Military Construction.--The Air Force $1.3 billion military 
construction request is austere, but provides funding for new 
construction aligned with weapon system deliveries. Additionally, the 
budget request sustains our effort to provide quality housing for 
Airmen and their families. Finally, the Air Force remains focused on 
completing its BRAC 2005 program and continuing the legacy BRAC 
programs as well as the environmental clean-up at legacy BRAC 
locations.
    Strategic Basing.--In 2009, the Air Force implemented a Strategic 
Basing Process to ensure basing decisions are made in a manner that 
supports new weapon system acquisition and delivery schedules as well 
as organization activation milestones. The newly established Strategic 
Basing Executive Steering Group directs these actions to ensure a 
standard, repeatable, and transparent process in the evaluation of Air 
Force basing opportunities. We are currently using this process to 
conduct an enterprise-wide look at F-35 basing options.
    Logistics.--Air Force requirements for weapon system sustainment 
funding continue to grow as aircraft age. In the long term, the 
increasing requirements for sustaining an aging aircraft fleet pose 
budget challenges and force trade-offs. We protected direct warfighter 
support, irregular warfare capabilities, and the nuclear enterprise. 
Since this year's budget includes a simultaneous OCO submission along 
with a base budget, the Air Force optimized its flying hour program 
funding to support only the peacetime flying hours we can fly, given 
the number of deployed Airmen and aircraft supporting Overseas 
Contingency Operations. Due to the volatile nature of fuel prices, 
reprogramming may be necessary to cover increased fuel costs. Over the 
longer term, enactment of the Department of Defense's legislative 
proposal for the Refined Petroleum Products Marginal Expense Transfer 
Account would reduce disruptions to operations and investment programs 
by providing the Department of Defense flexibility to deal with fuel 
price fluctuations in the changing economy. The Air Force maintained 
its commitment to transforming logistics business practices, including 
total asset visibility and associated information technology, by 
protecting funds associated with fielding the first increment of the 
Expeditionary Combat Support System.
                        readiness and resourcing
    Our efforts over the last year continued to stress both people and 
platforms. Nearly 40,000 of America's Airmen are deployed to 263 
locations across the globe, including 63 locations in the Middle East. 
In addition to deployed Airmen, nearly 130,000 Airmen support combatant 
commander requirements from their home station daily. These Airmen 
operate the Nation's space and missile forces, process and exploit 
remotely collected ISR, provide national intelligence support, execute 
air sovereignty alert missions, and contribute in many other ways. To 
date, the Air Force has flown over 50,000 sorties supporting Operation 
Iraqi Freedom and almost 66,000 sorties supporting Operation Enduring 
Freedom. During this time the Air Force delivered over 1.73 million 
passengers and 606,000 tons of cargo, employed almost 1,980 tons of 
munitions, and transported nearly 70,000 total patients and 13,000 
casualties from the USCENTCOM area of responsibility. In doing so, 
Airmen averaged nearly 330 sorties per day.
    To support the efforts of Airmen and to recruit and retain the 
highest quality Air Force members, this fiscal year 2011 budget request 
includes $29.3 billion in military personnel funding, to include a 1.4 
percent pay increase. Our active component end strength will grow to 
332,200 Airmen as the Reserve Component end strength increases to 
71,200, and the Air National Guard end strength remains 106,700 in 
fiscal year 2011. Our recruiting and retention is strong, but we 
request $645 million for recruiting and retention bonuses targeted at 
critical wartime skills, including command and control, public affairs, 
contracting, pararescue, security forces, civil engineering, explosive 
ordnance disposal, medical, and special investigations.
                                summary
    The Air Force's proposed fiscal year 2011 budget of $119.6 billion 
achieves the right balance between providing capabilities for today's 
commitments and posturing for future challenges. The Air Force built 
this budget to best achieve the four strategic priorities outlined in 
the 2010 Quadrennial Defense Review: (1) prevail in today's wars; (2) 
prevent and deter conflict; (3) prepare to defeat adversaries and 
succeed in a wide range of contingencies; and (4) preserve and enhance 
the All-Volunteer Force.
    Balancing requirements for today and tomorrow determined our 
recapitalization strategy. We chose to improve our existing 
capabilities whenever possible, and to pursue new systems when 
required. This recapitalization approach attempts to keep pace with 
threat developments and required capabilities, while ensuring 
stewardship of national resources. In developing this budget request, 
we also carefully preserved and enhanced our comprehensive approach to 
taking care of Airmen and Air Force families.

    Chairman Inouye. General Schwartz.
STATEMENT OF GENERAL NORTON A. SCHWARTZ, CHIEF OF STAFF
    General Schwartz. Mr. Chairman, Senator Cochran, members of 
the subcommittee, I'm proud to be here representing your Air 
Force with Secretary Donley.
    And let me begin by reaffirming that the United States Air 
Force is fully committed to effective stewardship of the 
resources that you and the Nation place in our trust. Guided by 
integrity, service, and excellence, our core values, America's 
airmen, I think, are performing courageously every day with 
precision and with reliability on behalf of the American 
people.
    And this budget request supports these airmen and our 
continuing efforts to rebalance the force, to make difficult 
decisions on what and how we buy, and to sustain our needed 
contributions to the joint team.

                       AIR FORCE FIVE PRIORITIES

    Secretary Donley and I established five priorities shortly 
after taking office to ensure that the entire force was focused 
on the right objectives. Most of our initial efforts centered 
on reaffirming our long-established standards of excellence, 
and recommitting ourselves to areas where our focus had waned. 
I am pleased to report to you today that our dedicated and 
talented airmen broadly understood our intent, and have 
delivered in meaningful fashion.
    Although these initial priorities were not designed to 
change from year to year, our progress in the nuclear 
enterprise is such that we can now shift our efforts to 
sustaining the progress that we've made. Thus, our first 
priority is to continue to strengthen excellence in our nuclear 
enterprise.
    The rigor of our nuclear surety inspections demonstrates a 
renewed commitment to the highest levels of performance. We 
must, and we will, do even more to ensure 100-percent precision 
and reliability in nuclear operations and logistics as close to 
100 percent of the time as such a human endeavor will allow.
    For our second priority--and that is partnering with the 
joint and coalition team to win today's fight--Secretary Donley 
mentioned several ways that--in which our airmen are providing 
critical air and space power for the joint and coalition team. 
Your airmen are also performing admirably wherever and whenever 
our joint teammates require, including providing battlefield 
medical support and evacuation, ordnance disposal, convoy 
security, and much more.
    Our third priority remains to develop and care for our 
airmen and their families. We initiated the ``Year of the Air 
Force Family,'' shortly after our testimony last year, in 
recognition of the vital role that our families fulfill in 
mission accomplishment. Although their sacrifice is perhaps 
less conspicuous, their efforts are certainly no less noble, 
and their contributions are no less substantial.
    Modernizing our inventories, our organizations, and our 
training--our fourth priority--is among the most difficult 
tasks that our service has undertaken in these last 18 months. 
In order to achieve the balance that Secretary Gates envisioned 
for our force, we are compelled to decision and to action. This 
budget represents a continuation of that effort. We set forth a 
plan last year to accelerate the retirement of some of the 
older fighter aircraft.
    This year we are not retiring any additional fighters, but 
we are transitioning from some of our oldest and least capable 
C-130s and C-5s. We will modernize, where we can; but, where 
modernization no longer is cost effective, we will pursue 
recapitalization. KC-X is one such example.
    With the delivery of the request for proposal (RFP), our 
top acquisition effort, to procure the next generation 
refueling aircraft, passed another significant milestone. A 
similar imperative is the F-35. I want to underscore Secretary 
Donley's comment by noting that this weapons system will be the 
workhorse driving our Air Force and our joint team forward.
    Long-range strike is the last program that I number among 
our top initiatives. The Air Force fully supports the 
development of the family of systems providing both penetrating 
and standoff capabilities for the next two or three decades, as 
described in the QDR.
    And finally, recapturing acquisition excellence--our fifth 
priority--is now only beginning to pay dividends with our 
acquisition improvement plan at the heart of our reform effort. 
While promising, the initial successes must continue for a 
number of years before we can declare victory on this front. We 
are fully aware that we must wring every bit of capability and 
value that we can from the systems that we procure; and so, 
this effort will require a sustained focus on acquisition 
excellence.
    Mr. Chairman, the Air Force will continue to provide our 
best military advice and stewardship, delivering global 
vigilance, reach, and power for America. Thank you for your 
continued support of the Air Force, and particularly for our 
airmen and their families.
    Sir, I look forward to your questions.
    Chairman Inouye. I thank you very much, General Schwartz.
    Because of the change in our time schedules, regretfully, I 
would have to impose a 5-minute rule. And I'll begin with the 
questioning.
    Mr. Secretary, because of emerging requirements on UAVs and 
cybersecurity missions, which will require thousands of trained 
personnel, how do you propose to meet this challenge of 
bringing together all these highly trained personnel?
    Mr. Donley. Mr. Chairman, this has been a tremendous 
challenge that the Air Force has stepped up to do. Our end 
strength is planned to be stable at about 330,000, but inside 
that Active Duty end strength, we are making the internal 
adjustments necessary to man the ISR systems and the 
intelligence support as it comes online.
    Most recently, we had proposed, and the Congress had 
approved last year, with some caveats, the reduction in fighter 
force structure, which we had laid on the table last year. That 
early retirement of about 250 legacy fighters allowed us to 
free up the manpower to put into the intelligence, 
surveillance, and reconnaissance area. And so, it is those 
internal adjustments, identifying career fields that are--where 
we have excess strength, and trying--and diverting that into 
areas that are growing--is a significant priority for us.
    Chairman Inouye. So, you're getting most of your personnel 
internally?
    Mr. Donley. Yes. The--we are. Of course, we continue to 
assess and recruit new airmen every year; that's part of our 
normal operation. But, we are redirecting expertise, inside the 
Air Force, to these new missions.
    Chairman Inouye. I thank you.
    If I may now ask General Schwartz: There's a growing 
concern that there'd be a lack of missile warning satellite 
coverage because of continued delays in the Space-Based 
Infrared High Program (SBIRS). And, as you know, the Air Force 
terminated the third-generation missile warning program in 
fiscal year 2011. How do you plan to mitigate this potential 
gap in coverage?

                             SBIRS PAYLOADS

    General Schwartz. Mr. Chairman, we have two SBIRS payloads 
on--that's the Space-Based Infrared System--payloads on orbit 
as we speak. And we intend to launch two more in the not-too-
distant future to address General Chilton's requirement for 
warning, and so on.
    The bottom line is that we believe we have a stable 
program, and one that will satisfy, with some margin, General 
Chilton's needs.
    Chairman Inouye. I thank you very much.
    May I now call upon Senator Cochran.
    Senator Cochran. Mr. Chairman, thank you for your 
leadership of our subcommittee, and for convening this 
important hearing.

                    LEASING UNMANNED AERIAL VEHICLES

    Mr. Secretary, I've been informed that Australia, Germany, 
and France are leasing unmanned aerial vehicles to support 
their intelligence, surveillance, and reconnaissance mission in 
theater which continue to grow. Has the Air Force considered 
leasing, on a short-term basis, unmanned aerial vehicles to 
meet this demand, like many of our North Atlantic Treaty 
Organization (NATO) allies are doing?
    Mr. Donley. My understanding is that we have done that in 
very limited situations. Our allies took this approach for 
different reasons; in part, the urgent need that they had for 
these capabilities, and the need for them to take a bit longer 
time working through their internal defense and appropriations 
processes inside their governments. So, those were the 
motivations, as I understand it, behind their approach to 
leasing.
    Generally speaking, we prefer to buy. When one does a 
lease, a major and significant issue is indemnification for 
loss. And in our case, we had access to the manufacturers and 
the capability to buy this capability; we intend to keep this 
capability over a longer term. Generally speaking, buying, 
depending on the circumstances, tends to be less expensive than 
leasing over the long term. So, we have taken the course that 
we should buy and own these capabilities.
    Senator Cochran. Okay. Thank you.
    General Schwartz, I understand that the combatant 
commanders outside of Central Command have requirements for 
intelligence, surveillance, and reconnaissance that are not 
being met. Would the Air Force consider leasing UAVs to meet 
this demand until requirements in the Central Command area of 
operation are reduced?
    General Schwartz. Sir, we have a mandate to get to 50 24-
hour orbits by the end of 2011. And the Secretary has mandated 
that we grow to 65 at the end of 2013. That is as much as we 
can do, both from a resource, a talent, and a manpower point of 
view. And so, my recommendation would be not to pursue lease.
    We are maximizing the production, for example, of the 
Reapers. And so, that will be the backbone of our remotely 
piloted aircraft (RPA) fleet, going forward. And given that's 
the case, we think we are on, sort of, the maximum performance 
glidepath, here, to growing the capabilities so that we can 
satisfy the needs of other combatant commanders, whether that 
be in the Pacific or the Horn of Africa or elsewhere.
    Senator Cochran. General, your prepared statement indicates 
that the Air Force continues to modernize the air superiority 
fleet, including the F-15s, specifically. Could you describe 
the operational benefits of the F-15E radar modernization 
program; and tell us whether the Air Force has considered 
accelerating this effort?

                       F-15E RADAR MODERNIZATION

    General Schwartz. Sir, there are a couple of initiatives, 
both for the E-model F-15 as well as the air superiority F-15Cs 
and F-15Ds. One of the things that the reduction in the fighter 
force structure allowed us to do was to reallocate resources to 
the remaining aircraft, the so-called ``Golden Eagles,'' if you 
will, where we will modify the radars with the active 
electronically scanned array capabilities. This technology is 
clearly superior to the mechanically scanned radars that the 
airplanes currently possess--greater service volume, greater 
ability to track multiple targets, and so on. In addition, 
installing an infrared search-and-track capability on the 
Golden Eagles, which they do not currently possess, are two 
examples of how we are improving the legacy birds that will 
stay with us for a while.
    With respect to the F-15E model and its radar, its major 
mission is air-to-ground, and the electronically scanned array 
radar for that platform will not only permit better targeting 
of ground targets, but also moving targets, which is a 
significant advantage with that installation.
    Senator Cochran. Thank you very much.
    I'd ask, Mr. Chairman, that my additional questions be 
submitted to the witnesses.
    Chairman Inouye. Without objection, so ordered.
    Senator Bond.
    Senator Bond. Thank you much, Mr. Chairman.

                         4.5 GENERATION FIGHTER

    Gentlemen, following my opening comments, I believe we can 
harness savings by putting more missions, not less, into the 
cost-effective Air Guard and procuring a blend of fifth-
generation and highly capable, more affordable, and proven 4.5 
generation fighters. That would ensure our Nation has at least 
two competing production lines.
    It's obvious that the situation has only grown more dire, 
as evidenced by the Nunn-McCurdy breaches, the Government 
Accountability Office (GAO) reports, and the joint estimate 
team (JET) study findings since you last told me, at this 
subcommittee, that, ``All options are on the table,'' to 
address this shortfall.
    General Schwartz, with shortfalls growing, and the 
inordinate delays of the key JSF program, with the cost going 
from an originally projected $55 million per copy to somewhere 
between $135 and $150 million, and the situation getting worse, 
why have you taken the 4.5 generation option off the table as a 
means of addressing these shortfalls?
    General Schwartz. Sir, the simple answer is that acquiring 
a 4.5 generation capability that will last as long, in the 
force structure, as a generation-5, seems to me--not the most 
prudent way to approach this problem. We have a limited pool of 
resources. And it is our sense, sir, that we should not 
dissipate that limited pool of resources, which we would prefer 
to devote to generation-5 capability, vice purchasing 
generation-4.5 that will last just as long.
    Instead, we believe that it is more prudent to extend the 
service life of certain elements of our existing fleet at some 
10 to 15 percent of the cost of purchasing new, and maintaining 
our commitment to the F-35; which, as I suggested earlier--we 
believe will be the backbone of tactical aviation, not just for 
the Air Force, but for the Navy, Marine Corps, and our 
international partners as well.
    Senator Bond. General Schwartz, I've heard questions about 
whether the JSF can even operate off of a carrier. There is a 
need right now. We have a shortfall right now. You could get, 
perhaps, three or more 4.5 generations for replacing some of 
the F-35s you're waiting to buy, if they ever complete their 
tests. But, when you talk about service-life extension, I'm not 
willing to buy the 14th Street Bridge again.
    The P-3C life-extension program terminated due to excessive 
costs. Same for the A-63. Same for the F-14A. The SH-60R cost 
increased from $4 billion to over $12 billion. The UH-1 and the 
AH-1 cost increased from $2.78 billion to $8.78 billion. And I 
think it's far better if you need those 4.5 to need to buy 
those.
    Let me address one very urgent question that the Guard has. 
Approaching the C-130 seems to be done in a vacuum. The Air 
Force identified the mobility capabilities and requirements 
study as the reason for reduction in the tactical airlift 
aircraft. But so--like many other self-fulfilling studies, it 
ignored the homeland defense mission and the role that the 
Air--C-130s play as a key element of the strategy.
    Additionally, the Air Force has admitted the plan was to 
accelerate the early retirement of E models. My understanding--
and please correct me if I'm wrong--is that the Air Force has 
45 C-130 aircraft at Little Rock, and the Air Force has 15 C-
130 that will not have any restriction for over 3 years.
    Without prior planning, I believe the Air Force could 
recapitalize the fleet and meet all training needs for the 3 
years, without Banana Republic iron-swapping of aircraft for 
the Air Guard.
    Mr. Donley, I appreciate your reply to Senator Leahy and 
me. I believe that any temporary movement of aircraft is 
unrealistic.
    Can either of you tell me whether options like conducting 
the training at Guard C-130 units, where savings could be 
harnessed and which would take advantage of the experience of 
the Guard, were considered before making this swap that I have 
heard from so many people was unwarranted and unjustified?

                             C-130 TRAINING

    General Schwartz. Sir, perhaps the Secretary will want to 
capitalize. Let me give you a little background on this.
    The training--the way the airplanes are distributed in our 
Air Force is as follows: Those aircraft that will be staying 
with us--and that is the C-130H model--H2, H2.5, H3s--are 
predominately--in fact, 77 percent of those aircraft reside in 
the Air National Guard and the Air Force Reserve. And the 
thinking was, given that we were going to recapitalize the 
remainder of the fleet, with the J model over time, that it 
made sense for the Air National Guard to assume the training 
mission for that body of our capability--for the H-model 
capability.
    Now, I will acknowledge, sir, that we didn't do as thorough 
a job as we should have in articulating the rationale for this 
earlier on.
    We now have a solution, which the Secretary responded to 
you on, which makes the Schoolhouse mission at Little Rock Air 
Force Base an Air National Guard and Air Force Reserve combined 
mission, something for which, as you suggest, they are very 
well qualified to perform, and to do it with airplanes from a 
number of units around the country, on loan. As we 
recapitalize, we grow the Js and reduce the Hs, so that the 
need for that Schoolhouse will subside over time, and the 
aircraft will return to their host units. Importantly, it will 
be--largely, because of the way the force is distributed, it is 
the Air National Guard and Air Force Reserve that will benefit 
from this approach.
    So, sir, that is the background on this. Again, I 
acknowledge that we did not reach out as well as we should have 
to explain what the logic was to the Adjutants General and 
others. And we'll do better in that respect, sir.
    Mr. Donley. I'd just like to reinforce that, in working 
through the second round of this problem, which we did in the 
last couple of months, and which I've responded to you on in a 
letter--the Air Force Reserve and the Air National Guard led 
that work. So, they went through a number of options for how to 
best accommodate the early retirement of C-130s, to take a 
stronger role in running the Schoolhouse at Little Rock Air 
Force Base, and to do that in a way that was, we felt, least 
disruptive to the individual Air National Guard units. And I 
believe we worked through a successful conclusion on that.
    Senator Bond. Thank you.
    Mr. Donley. And we also had the benefit, in that solution, 
not only retiring the Active Duty C-130s, but being able to 
reapply the Active Duty manpower to higher priority missions, 
such as those the chairman mentioned.
    Senator Bond. Thank you, Mr. Secretary.
    Thank you, Mr. Chairman. My apologies----
    Chairman Inouye. Senator Dorgan.
    Senator Bond [continuing]. For going over.
    Senator Dorgan. Mr. Chairman, thank you.
    General Schwartz, I noticed that Colonel Keith Zuegel is 
sitting behind you. And he's retiring this month, I believe. 
And I just wanted to say, on behalf of the subcommittee, that 
he's, I think, been the chief of your Liaison Office for some 
long while and, I think, done a great job working with the 
subcommittee.
    So, Colonel Zuegel, good luck in your retirement.
    General Schwartz. He is a great example of the talent that 
we have in our Air Force, sir.
    Senator Dorgan. Let me ask you about two things. And I'll 
just ask both of them, and then perhaps both of you could 
respond.
    One is: you're going to stand up about 25 more combat air 
patrol units across the country, for UAVs. And I notice some of 
them are going to bases that house fighters and bombers. I also 
notice that is not necessarily the requirement for a combat air 
patrol unit. Some might think, in a kind of an old-fashioned 
way, that there has to be a merger. But, we also have combat 
air patrol units in areas that don't have fighters and bombers, 
who do just as well.
    And, I guess what I would ask--and you know why I'm asking, 
because we have one--a terrific base, with substantial 
capability to house additional missions, and that's the Grand 
Forks base--that you take a look at--and you probably already 
do this, but take a look at, how do you minimize the need for 
Milcon as you place these units? Because you've got some 
capacity, particularly the Grand Forks Air Force Base, as 
you're moving tankers out; the opportunity for another combat 
air patrol unit up in that area, or two, is a great 
opportunity.
    So, that's number one. I understand why some will counsel 
you, ``Put it near fighters and bombers'' others will say, 
``Completely unnecessary.''
    Second, my colleague from Missouri asked about the Joint 
Strike Fighter, and all of us who have been so supportive of 
that are also disappointed, in the sense that--as I calculate 
it--what we were told--I was on this subcommittee in 2002, and 
we were told--I guess, 2001--that the estimated cost was going 
to be $50 million per copy. And the latest estimate--an 
independent group formed by the Pentagon estimated 80 to 95. 
Well, taking the midrange of that--this is 2002 dollars, now--
that's about a 75-percent increase in the per-unit cost for a 
Joint Strike Fighter. I mean, that's really alarming. Because 
what happens is, there's this relentless march in increased 
costs that is just going to break the back of the Air Force and 
the Pentagon if we don't get some handle on it.
    So, the simple question is: Why? What accounts for a 75-
percent projected per-unit cost of the Joint Strike Fighter? 
Because it was heralded to us as something that was 
``Nirvana,'' it was going to serve over the range of services, 
``We're going to build enough of them to have the per-unit 
costs substantially down.'' But, it turns out now, in a very 
few short years, as we're just starting to produce, that the 
cost has just climbed way beyond that which is reasonable.
    So, the question is: Why?

                    JOINT STRIKE FIGHTER UNIT COSTS

    Mr. Donley. Mainly this is time. It's a function of time.
    Senator Dorgan. Well, I'm talking about 2002 dollars, as 
estimated by the independent group----
    Mr. Donley. Yes, sir. This means there have been delays, 
internal to the program, which add years--or months and then 
years to the projected schedule of the program, which then add 
years to the end of the program. So, you carry the program 
further out.
    Senator Dorgan. And what has caused the delays?
    Mr. Donley. A variety of issues have caused that. We've had 
too many engineering hours, which have not come down as the 
manufacturer works through the transition from development to 
production. They have fallen behind in the flight testing, 
because they haven't produced the initial jets on the planned 
schedule. Then they've fallen behind on the test program, so we 
have to work through the production issues. And then we have to 
slip the test program and add money for development.
    So, this was the work that was done by the Department over 
the winter to restructure this program. It was a top-to-bottom 
scrub. It was really the product of a 2-year effort. When the 
Chief and I came in, there was already an independent estimate 
going on on this program. And Secretary Gates made the correct 
decision to make adjustments in the fiscal year 2010 program, 
adding money for development--over $400 million, as I recall, 
just in fiscal year 2010.
    By the time we got to the end of calendar year 2009, we'd 
had two rounds of independent estimates, and we stepped up to 
the fact that the program was not executing as it needed to. 
And this was, really, the strategic-level decision to 
restructure the program.
    Senator Dorgan. Did we miss some early-warning flags here 
on this subcommittee? Because I don't remember sitting and 
listening to the fact that we're going to--we may end up having 
a 75-percent increase in per-unit cost for the one--for the 
Joint Strike Fighter. I mean, is this just laid in our lap all 
at once?
    Mr. Donley. If I can be bold, here, from a staff-level 
perspective, I don't believe there were surprises. The program 
had challenges and was falling behind in some areas.
    The issue was whether or not to believe the program office 
and the contractor, that they had a fix for those shortfalls. 
And really it was just in the last 2-year period where we had 
independent eyes on it. We determined we were not going to take 
a promissory note for a ``get-well plan'' that was not 
materializing. So, we decided to make a huge adjustment in the 
program at that time.
    Senator Dorgan. Mr. Chairman, could I just--I know my time 
is expired, could I ask for a 1-minute response on the combat 
air patrol units in one of the best air bases in America, the 
Grand Fork Air Force Base?
    General Schwartz. Senator Dorgan, let me explain two 
things.
    First of all, the rationale for co-location with other 
fighter or bomber combat Air Force units. This is a human-
capital question. And the issue is, how do we groom combat 
leaders that understand both the traditional kinds of 
capabilities that we've fielded for decades, and the new? And 
how do you integrate remotely piloted and traditionally manned 
aircraft in the right kind of packages?
    This is the logic behind, fundamentally, the notion of co-
location in some locations. It is not a major point driver in 
terms of our evaluation of installations. I would argue that 
the availability of facilities is--on a point basis--a greater 
consideration. But, the logic was to give some deference to our 
need to grow airmen commanders who understand all aspects of 
our portfolio, and can apply them, as required.
    Senator Dorgan. Mr. Chairman, thank you very much.
    Chairman Inouye. Thank you.
    Senator Murray.
    Senator Murray. Thank you very much, Mr. Chairman.
    The President's budget for this year, 2011, doesn't include 
any investments in military construction at Fairchild Air Force 
Base. And I wanted to ask you why.
    I was just out at the base, Fairchild, in April; had a 
chance to tour, take a look at all that's going on there, and 
talk directly with the base community. And there are a lot of 
facilities at Fairchild that are in need of upgrades, and some 
aren't even sufficient to meet the needs of a 21st century Air 
Force.
    Can you explain, Mr. Secretary, why there's no military 
construction investment in Fairchild this year?

                    AIR FORCE MILITARY CONSTRUCTION

    Mr. Donley. Very simply, we have chosen to take risk in 
infrastructure. We have underfunded our military construction 
and facility infrastructure, for several years running now. And 
I believe our Air Force budget is--we'll get you the exact 
numbers, is less than $2 billion a year at this point.
    [The information follows:]

    Our fiscal year 2011 Air Force military construction 
(Milcon) and facility infrastructure budget is $4.6 billion 
($1.5 billion for Milcon and $3.1 billion for facility 
sustainment, restoration, and modernization).

    Mr. Donley. So, it is at low levels, and has been for 
several years. As we confront other resource challenges inside 
the budget, pressures of varying kinds--it just--it costs a 
whole lot more in the future. Do we have a long-term 
recapitalization plan for our bases?
    Mr. Donley. Ma'am, I would just say that there's a 
difference between military construction and facility 
maintenance. And we have maintained the Department standard on 
facility maintenance. Primarily, we focus the limited military 
construction dollars on a new mission. Remotely piloted 
aircraft is a case in point. And we don't have, apparently, in 
this case--and we'll confirm that--a new mission at Fairchild 
Air Force Base.
    Senator Murray. Well, let me ask directly about that. In 
the past, we've heard promises that the first KC-X tankers will 
come to Fairchild. That was walked back. The men and women who 
serve at Fairchild have a great proven track record with our 
tankers, and they're ready and willing to fly the KC-X. Have 
you yet prioritized which squadrons need to have their aircraft 
replaced first, based on their maintenance records, Mr. 
Secretary?

                              KC-X BASING

    Mr. Donley. I've not. Let us get you an answer for the 
record on this specific question.
    [The information follows:]

    Senator Murray, as you know, the Air Force now uses the 
Strategic Basing Process to make all future basing decisions. 
The result of this process will not be directly linked to the 
existing tanker inventory or any future retirements of the KC-
135 fleet. Actual basing decisions will be made in an 
incremental fashion to align with aircraft deliveries, 
typically 2 years in advance of delivery.

    Mr. Donley. In general, we have not yet had to make the 
decision on the initial beddowns for KC-X tankers. But, we did 
include, in the request for proposal (RFP) that is now out and 
a matter of public record, a representative list of bases that 
were continental U.S. bases and overseas bases to which tankers 
could be bedded down. And we did that for the purposes of the 
evaluation. And Fairchild Air Force Base is included in that 
list.
    Senator Murray. Right.
    Well, with respect to the tanker, I wanted to ask you, with 
bids not due, now, until July 9, this is starting to sound like 
a fairly compressed bid evaluation timeline for the Air Force. 
It's really important that the Air Force has enough time to 
make a full and fair assessment of the bids that come in, and 
then that that decision will be held up under scrutiny, as we 
all know.
    And I'm very concerned about this discussion of a projected 
contract start date of November 12, when there's no projected 
award date, that I know of, yet. And the entire acquisition 
process now continues to be hampered by delays.
    Mr. Secretary, how can the Air Force talk about tentative 
start dates when they haven't projected an award date yet, and 
seem sort of uncertain about when that will be?
    Mr. Donley. Based on our experience in this RFP and 
previous ones, the judgment was it's best, at this point, not 
to exactly try to pin down when the contract award would be, or 
when the source selection would be completed. We'll leave that 
to the source-selection authority. They have, I think, ample 
time to review the proposals, which are due July 9, 2010. So, 
we think there are several months for reviews. And there are, I 
would say, multiple reviews--independent reviews, as well--that 
need to be factored in.
    But, we did feel, as a matter of record for the RFP, that 
it is important to tell the contractors, all offerors, when we 
think a contract award would be made, so that they have a firm 
date at which they need to be prepared to proceed.
    Senator Murray. Well, my understanding is, November 12 is 
the contract start date, not the award date.
    Mr. Donley. Yes.
    Senator Murray. And you have not----
    Mr. Donley. That's correct.
    Senator Murray [continuing]. Given them an award date yet.
    Mr. Donley. That's correct. ``Contract start date'' was the 
term.
    Senator Murray. And you believe that that'll give you 
enough time?
    Mr. Donley. We believe so.
    Senator Murray. Okay.

         WORLD TRADE ORGANIZATION RULING IN TANKER COMPETITION

    I also wanted to ask you about the World Trade Organization 
(WTO) ruling that Airbus has received illegal trade-distorting 
subsidies, for years. And, in particular, the World Trade 
Organization found that the A-330, which is the very airframe 
that they planned to use in this tanker competition, has been 
built using illegal subsidies. Now, I continue to be very 
troubled that DOD is awarding this contract--it's taxpayer 
funded, $35 billion competition.
    Without accounting for the billions of dollars in illegal 
subsidies that Airbus has received, I want to know how you can 
assure American taxpayers that they won't be spending money now 
to support an illegally subsidized company that one part of our 
Government, the United States Trade Representative (USTR), has 
already declared harmful to American jobs.
    Mr. Donley. We have, in the Department of Defense, worked 
through this issue with the U.S. Trade Representative and the--
--
    Senator Murray. Have you been personally briefed by the 
Trade Rep?
    Mr. Donley. We've had conversations with the Trade 
Representative, yes. And the judgment inside the executive 
branch, not just the Air Force or DOD, but working with our 
interagency partners, is that it would not be appropriate for 
the Department of Defense, in a single contract action, to take 
action representative of a WTO-level decision.
    Senator Murray. If one company is bidding against a company 
that has been subsidized, our taxpayers are essentially 
fighting against a country rather than a company.
    Mr. Donley. The WTO has an appeal process, which still 
needs to play out. There is, as you know, an additional suit in 
front of the WTO that involves a countersuit. And there are 
appeal processes that are laid out in WTO procedures. As a 
Government, we need to follow those appeal processes, which 
eventually get to the point of making tradeoffs and making 
determinations on how to affect the results of the appeal 
process at the end----
    Senator Murray. Well, I understand the end result of a 
ruling. But, again, the A-330 is what they said has been 
illegally subsidized. So, I'm sure we'll----
    Mr. Donley. I understand.
    Senator Murray [continuing]. Have more conversations----
    Mr. Donley. Yes, ma'am.
    Senator Murray [continuing]. About it as we move forward.
    Thank you very much, Mr. Chairman.
    Chairman Inouye. Thank you.
    Senator Bennett.
    Senator Bennett. Thank you very much, Mr. Chairman.
    And, gentlemen, welcome. Appreciate your good work.
    And you know what I'm going to talk about, which is the 
Solid Rocket Booster Program. I believe that this 
administration has made a very serious mistake in restructuring 
the National Aeronautics and Space Administration (NASA). And 
you say, ``Well, why do we care, in a defense hearing?'' It's 
because it has to do with the industrial base of solid rockets.
    And regarding the Minuteman, specifically, I'd like to know 
if the Office of the Secretary of Defense had any conversations 
with NASA, or the Air Force had any conversations with NASA, 
before the President announced his intention to shut down solid 
rocket production?

                    NASA AND SOLID ROCKET PRODUCTION

    Mr. Donley. I'm not aware that the Air Force was consulted 
specifically on the NASA decisions.
    Senator Bennett. Well, you're deliberately--you're very 
definitely affected by this. And do you have any plans to 
sustain the industry in order to continue to meet current 
deployed and future anticipated strategic spacelift and 
tactical missile needs, because you can't meet those needs with 
liquid rocket--or liquid-fueled rockets?
    Mr. Donley. We do understand the challenge. And we do not 
have an answer, at this moment, as to how we intend to proceed. 
The Air Force has had discussions, at a couple of levels, with 
the National Reconnaissance Office (NRO) and with NASA 
officials at the highest levels. I've talked to Administrator 
Bolden and I've talked to General Carlson at NRO. We have 
recognized this as something we need to work together, going 
forward. We don't have answers right now, but we have folks 
that are focused on this challenge.
    Senator Bennett. Well, both the chairman and the vice 
chairman know of my strong interest in this. I'm glad to know 
you recognize that you have a challenge, independent of what 
may happen with NASA.
    And I'm going to be working with Senator Mikulski to see 
what I can do to see to it that there is a delay in the 
decision, as far as the President is concerned, because I think 
we have to solve the question of, How does the Defense 
Department cover its needs in solid rockets if NASA goes ahead 
with what I consider to be a very ill-considered decision on 
the part of the President?
    Do you see any increased risk if the Minuteman motors--stop 
the production of Minuteman motors, 19 years short of the 
planned operational status of that particular missile?
    Mr. Donley. In general, Minuteman has been a very reliable 
system for us, and it continues to test well. But, we do know 
that we have challenges ahead with respect to maintaining a 
warm base. And we're not satisfied with the bridging solution 
that we had developed here, over the last couple of years, 
which takes us through 2011. So, we need to find a way forward 
for fiscal year 2012 and beyond on this subject.
    Senator Bennett. I agree with that, absolutely.
    And anything you can do to weigh in with the 
administration--you say you're talking to the Administrator of 
NASA, and that's fine. But, life being what it is, I don't 
think that's where the decision was made.
    Frankly, I--I won't put words into his mouth, and I won't 
give any suggestion of his intentions, but strictly my own 
opinion is that--let us say, ``a generic NASA Administrator'' 
concerned primarily for the survival of his organization would 
not have approved this. And I think it's a decision that was 
made at the Office of Management and Budget (OMB) and dictated 
to this particular NASA Administrator. So, conversations with 
the NASA Administrator may not be productive in this area.
    And I would urge you to have conversations with whatever 
``elves'' within the administration you deal with, over at OMB, 
because I think that's where the decision was made--or whoever 
the masters are. And that the NASA Administrator's being a good 
soldier--or good airmen, depending on where he went to 
college--and carrying out orders. But, this is a very serious 
kind of question.
    And I just would close, Mr. Chairman, with this 
observation. Do you know where the term ``Minuteman'' came 
from? It came from the initial rockets that were created in our 
days, race with Sputnik and afterwards, that were liquid fuel. 
And to get those things fired up, get them launched, took 
hours. And suddenly we had a ``Minuteman'' that could be fired 
within minutes, because it had a solid rocket motor, rather 
than a liquid rocket motor, and could go immediately.
    And now, we're in the process of eliminating our industrial 
base of solid rocket motors. And you may not have any Minuteman 
left over if we go back, by virtue of the decision at NASA, to 
an industrial base that is given entirely to liquid rocket 
motors.
    I've made my speech. Thank you, Mr. Chairman. I appreciate 
your indulgence.
    Chairman Inouye. Thank you very much.
    Senator Brownback.
    Senator Brownback. Thank you very much, Mr. Chairman.
    I'm glad to hear that history about Minuteman. I didn't 
know that piece. I wanted to go back to ``Day-man,'' I guess, 
on this----
    Senator Bennett. Six-hour-man.
    Senator Brownback. Six-hour-man.
    Secretary, I want to follow up with what Senator Murray had 
asked. This is obviously a major issue for my State and the 
tanker contract. And I've been frustrated about the lack of 
being able to consider the illegal subsidy. And we've had many 
discussions about this, you know, with Secretary Murray--or 
with Senator Murray.
    For the military, if every step of appeal were exhausted, 
and the World Trade Organization found that Airbus had 
illegally subsidized the A-330 that they had bid, and this was 
conclusive, and all the appeals are done, would you consider 
that in the bid--the base bid of the contract?

         WORLD TRADE ORGANIZATION RULING IN TANKER COMPETITION

    Mr. Donley. I wouldn't commit to that at this point, 
because I think our answer would be, we would be working with 
the U.S. Trade Representative, and he would be working--he or 
she would be working through that WTO process to arrive at the 
appropriate specific steps to be taken at the end of that 
process. And this is why the internal judgment to the 
administration is that it would premature to take any 
particular action, at this point, on this program.
    Senator Brownback. Doesn't that invite other countries to 
do very similar actions to get our military contracts, whether 
it be ships or virtually anything of a military contract?
    Mr. Donley. I wouldn't speculate on what motivations might 
be from other companies to do this. I would simply say and I 
don't know that this would completely satisfy your concern but, 
both of the offerors involved here are international companies. 
We need to think through very carefully, as a nation, how we 
operate in the WTO and in the international marketplace, with 
respect to imports and exports, and goods and services 
provided. At the same time there are concerns about bringing 
onshore competitors to U.S. industrial-base partners. We also 
have to recognize that our international companies here in the 
United States want to sell abroad----
    Senator Brownback. Well, I----
    Mr. Donley [continuing]. And we have to have doors open for 
that as well, as do----
    Senator Brownback. And can be sued under the WTO, as well, 
abroad. But, I--it seems like, to me, if you're a foreign 
country, and you're reading the tea leaves on this, and we--
frankly, I think we've bent over backwards to try to get Airbus 
to bid on this. And we've held it open extra length of time. 
And certainly citizens in my State are livid about what the 
military is doing to try to give this to Airbus, with the--you 
know, with the extra--holding it open a longer period of time, 
do all these steps.
    But, at least on this illegal-subsidy piece, if we don't 
fix that hole, I would think other countries would say, ``You 
know, the United States builds ships. Why don't we subsidize 
our way into shipbuilding. Well, let's get some of these 
contracts. These are great contracts. Why don't we do''--
there's just a whole series of ones, to the point that I think 
we should put, in statutory form, that if there is a subsidy, 
as determined by WTO, that that's considered into the base 
price of the bid. Whether it's a U.S. company or a foreign 
company that does something like that--and I'm particularly 
targeted at foreign companies--but, to give us some teeth and 
to make some clarity on a major issue that I think you're 
inviting more foreign companies, or others, to figure ways to 
subsidize to get major U.S. military contracts. And I think 
we'd be wise to just put that in statutory form.
    Mr. Donley. Without responding directly to that proposal, I 
would just offer that in the context of the KC-X RFP, our 
approach to this is to hold the U.S. taxpayers harmless from 
any penalties that might be assessed on one manufacturer or 
another as we go through this WTO process. So, if there are 
penalties somewhere along the line, that we do not pay for 
those in the KC-X program.
    General Schwartz. And, Senator, if I may, just to clarify, 
there was no change in the requirements for the platform. The 
decision to extend was, in my view, largely in the interest of 
a competitive scenario. But, I can assure you, there was no 
change in the requirements.
    Senator Brownback. Well, if you award this to Airbus, after 
this step--extraordinary step of extending the time period--and 
it's a $35 billion contract, and it's a subsidized platform, 
which we all know is a subsidized platform--I think you're 
going to have some very irritated people in the United States 
of America. So, I would hope that wouldn't be the case. And I 
hope we can give you some statutory clarity on figuring the 
subsidy price into these military contracts.
    Thank you, Chairman.
    Chairman Inouye. I thank you very much.

                     ADDITIONAL COMMITTEE QUESTIONS

    Because of the conflict that's on our Senate schedule, 
several members have not been able to attend. And they have 
questions; they've asked me to submit them to you. And it 
should be obvious that all of us have other questions to ask.
    So, without objection, I will be submitting to you, Mr. 
Secretary and General, questions for your responses.
    And in behalf of the subcommittee, I thank you for your 
testimony this morning. And we want to thank you and the men 
and women in your command for their service to our Nation.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
             Questions Submitted to Hon. Michael B. Donley
            Questions Submitted by Chairman Daniel K. Inouye
    Question. Secretary Donley, to meet emerging requirements, the Air 
Force is quickly expanding its unmanned aerial vehicle and 
cybersecurity missions. It is adding thousands of highly trained 
personnel to these career fields in a short time. How is the Air Force 
managing the manpower challenges associated with these new missions?
    Answer. The Air Force has programmed actions to source the manpower 
required to grow its remotely piloted aircraft fleet operational 
capability to 50 combat air patrols (CAPs) by fiscal year 2011, with 
existing manpower identified in the fiscal year 2011 President's budget 
request. We are also in the process of identifying existing, lower-
priority manpower authorizations for realignment to the 65 CAP 
requirements by 2013 as part of our fiscal year 2012 budget submission. 
Specific intelligence, surveillance, and reconnaissance career field 
impacts are under study.
    In order to develop and institutionalize cyberspace capabilities 
and to better integrate them into the Joint cyberspace structure, the 
Air Force funded manpower in the fiscal year 2010 President's budget to 
establish a Cyber Numbered Air Force (24 Air Force). Furthermore, the 
fiscal year 2011 budget request reflects a continued Air Force 
commitment to cyber superiority as we sourced manpower for fiscal year 
2011 to support enhanced Network Attack capabilities.
    Question. Secretary Donley, what do you see as the role of the Air 
National Guard and Air Force Reserve in UAV and cybersecurity 
operations? Is the high operational tempo of these mission sets 
compatible with the civilian responsibilities of our Guardsmen and 
Reservists?
    Answer. Both the Air National Guard (ANG) and Air Force Reserve 
play significant roles in our ongoing overseas contingency operations 
providing critical support to our Joint Force Commanders.
    With respect to remotely piloted aircraft (RPA) operations, the ANG 
has four MQ-1 Predator squadrons providing two combat air patrols each 
and one MQ-9 Reaper squadron providing one combat air patrol in the 
U.S. Central Command theater of operations. Although each ANG unit was 
programmed to provide only a single combat air patrol (CAP), as a 
result of the increasing demand for this capability, each MQ-1 unit was 
mobilized in 2008 to provide an additional CAP. As of July 2009, the 
mobilization expired; however, the ANG voluntarily elected to maintain 
their additional CAPs allowing the active component to focus its 
efforts elsewhere, such as increasing RPA training capacity.
    In addition to the combat support each unit is providing, some 
units are providing RPA maintenance and flying training capability. The 
California ANG stood up a maintenance training unit in 2008, graduating 
approximately 600 Active, Guard and Reserve students each year and a 
flying training unit in 2009, producing approximately 40 Active, Guard 
and Reserve RPA aircrews (pilots and sensor operators) each year. The 
New York ANG provides maintenance training for the MQ-9, while the 
Nevada ANG provides both combat and flying training support by 
augmenting RPA personnel at Creech Air Force Base, Nevada.
    As we continue to expand our RPA efforts, we anticipate increased 
ANG participation within the next few years at 4-6 additional 
locations.
    The Air Force Reserve is supporting warfighter efforts with an Air 
Force Special Operations Command MQ-1 squadron at Nellis Air Force 
Base, Nevada, and we will be standing up an RQ-4 Global Hawk Reserve 
squadron at Grand Forks Air Force Base, North Dakota. We are also 
examining different possibilities for expanding Reserve participation 
in the MQ-1 and MQ-9 communities as we continue to our planned growth 
to 65 MQ-1/9 CAPs by the end of fiscal year 2013.
    With respect to cyber security operations, eight Air National Guard 
units currently provide cyber capabilities that meet combatant 
commander and Air Force requirements. For example, the 262nd Network 
Warfare Squadron of the Washington ANG provides vulnerability 
assessments of Air Force networks to bolster security and prevent 
attacks. Additionally, Air Force Reserve personnel augment several 
active duty cyber units, working in the same duty positions as their 
active duty counterparts.
    Question. Is the high operational tempo of these mission sets 
compatible with the civilian responsibilities of our Guardsmen and 
Reservists?
    Answer. Yes. For RPAs, aside from takeoff and landing, the Air 
Force operates our MQ-1/9 and RQ-4 aircraft via satellite data link 
from stateside locations. This capability has significantly reduced the 
number of personnel needed to deploy, lessening the impact on our Guard 
and Reserve forces. While the operations tempo remains high, a majority 
of our Guard and Reserve support has come from volunteerism. When the 
ANG's mobilization expired in July 2008, each of our ANG MQ-1 squadrons 
requested to maintain their surge CAP in addition to the single CAP 
they were programmed to provide. Additionally, despite being at war, 
our Guard and Reserve units conducting RPA operations have been able to 
maintain their civil support commitments during other contingency 
operations such as floods, fires and earthquakes.
    For the cyber security mission, steady-state support to the Air 
Force, as well as mobilizations--whether voluntary or involuntary--have 
historically not resulted in adverse impacts to ANG personnel or their 
ability to meet obligations to civilian employers. In addition, 
Guardsmen and Reservists are often employed by some of the most high-
tech companies in America such as Cisco, EDS, Microsoft, Siemens and 
Symantec who also engage in cybersecurity of the nation's 
infrastructure. Both the military and civilian sectors benefit by 
having these professionals work in both environments.
    Question. Secretary Donley, Lieutenant General Wyatt, the Director 
of the Air National Guard alerted us to the fact that 80 percent of its 
F-16 fighters begin reaching the end of their service life in 7 years. 
Retiring these aircraft will almost eliminate the Air National Guard 
fleet dedicated to the Combat Aviation and Air Sovereignty Alert 
missions. With delays in the F-35 program now documented, it appears 
that the Air Force is taking some risk in the size of the fighter 
inventory. How will you ensure that enough aircraft are available for 
the important homeland security mission?
    Answer. Defense of the homeland is the DOD's highest priority 
mission. The Air Force will continue to steadfastly support Operation 
Noble Eagle (ONE) through the Total Force concept as it has since 9/11. 
ONE requirements are currently driven by the April 2009 CJCS Execute 
Order (EXORD) and May 2009, U.S. Pacific Command EXORD, and are sourced 
through provisions of the Secretary of Defense approved Global Force 
Management process. While ONE is a Joint mission, the Air Force has 
historically performed the overwhelming majority of ONE fighter 
missions. The Air Force has sufficient fighter inventories to execute 
ONE based on the current requirements.
    Question. Secretary Donley, is the Air Force looking at new 
missions for the Air National Guard? Are additional association 
relationships with active Air Force units planned?
    Answer. We continually examine our force structure needs to fill 
new or emerging missions with the best Total Force solutions. The Air 
National Guard is contributing to RPA, cyber, space and other key 
mission areas. Our desired end state is a leaner, more capable and more 
efficient Air Force leveraging the strengths of both our active and 
reserve components, and we will continue to look to implement associate 
units when the business case and operational requirements support it.
    Question. Secretary Donley, there is $325 million in the fiscal 
year 2011 budget request for the NPOESS (``EN-POSE'') weather satellite 
program. As you know, the White House ended the program this fiscal 
year. What is your plan for the follow-on satellite program and the 
fiscal year 2011 funds?
    Answer. The Department of Defense (DOD) stakeholders are in the 
final stages of determining how best to proceed to meet DOD needs and 
requirements for this mission using the $325 million in research, 
development, testing, and evaluation funding in fiscal year 2011. The 
DOD restructure options are still being studied, however the budgets 
for the various options conform reasonably well to that of the Future 
Years Defense Program profile. The DOD is building acquisition 
timelines, conducting follow-on program risk assessments, assessing 
industrial base impacts, and determining the level of fiscal year 2011 
funding required, in consultation with the National Oceanic and 
Atmospheric Administration and the National Aeronautics and Space 
Administration. The DOD expects to provide a more detailed strategy by 
late-summer this year.
    Question. Last fall, the Air Force stood up the Global Strike 
Command, bringing the Air Force's intercontinental ballistic missiles 
and nuclear-capable bombers under one command for the first time since 
the days of the Strategic Air Command. This is the culminating event on 
the Nuclear Roadmap created to revitalize the nuclear enterprise. 
Secretary Donley, could you bring us up-to-date on the status of that 
initiative and tell us what is next?
    Answer. Air Force Global Strike Command (AFGSC) is on schedule to 
achieve full operational capability by September 30, 2010. The command 
assumed the ICBM mission from Air Force Space Command on December 1, 
2009 and the B-52/B-2 bomber mission from Air Combat Command on 
February 1, 2010. AFGSC has developed new command guidance/policies; is 
actively engaged in the no-notice/limited-notice nuclear surety 
inspection process, is an active participant in U.S. Strategic Command 
exercises; and is aggressively working to fill all manpower vacancies, 
particularly in the civilian workforce.
    Going forward, command priorities include implementing the 
provisions of the Nuclear Posture Review, ensuring long-term 
sustainment of the aging ICBM fleet, and reviewing implications and 
anticipated enforcement of the New Start Treaty when it is ratified.
    Question. Secretary Donley, the budget requests $66 million for a 
new program procuring 15 Light Mobility Aircraft. This new initiative 
expands your mission which, given the emphasis by Secretary Gates on 
reducing defense expenditures, appears unusual. Could you elaborate on 
the benefits of this program and why it is a wise investment now?
    Answer. LiMA will enable the United States to demonstrate, train 
and perform lower-cost airlift operations to and from austere areas, 
working in concert with Partner Nations (PN) with limited capacity and 
capability to perform aviation functions. Primary benefits from this 
approach include reduced wear and tear on larger, more expensive U.S. 
mobility aircraft, increased airlift capability in austere regions with 
sparse infrastructure, and a right-tech aircraft that represents the 
types of capabilities a PN can afford to acquire, maintain and operate. 
The result of this approach is the United States will demonstrate the 
utility of LiMA to a PN, thus facilitating Theater Strategic and 
Campaign Plan objectives and enhancing our long term capabilities 
through security cooperation.
                                 ______
                                 
             Question Submitted by Senator Patrick J. Leahy
    Question. Air Force leadership has come out on the record opposing 
the F136 alternate engine program for the Joint Strike Fighter. Two 
aspects of sole-sourcing the F-35 engine are troubling, and DOD leaders 
have not addressed them yet.
    First, the F135 engine has never competed against the F136 engine, 
and under the current DOD plan, it never will. While the prime contract 
for the F-35 was fully and fairly competed, the sub-contract for the 
engine was selected as an element of the prime without any competition. 
Competition would determine which engine is technically superior and it 
would drive down costs, which is something this program desperately 
needs. Second, the F-35 will eventually comprise 95 percent of our 
strike aircraft fleet.
    If that doesn't qualify as a need for a redundant second engine, 
then what does? What happens to our operational flexibility if the 
fleet is grounded for engine problems? Such occurrences have happened 
before, such as with the Harrier jet. But never before have we had a 
grounding of such a broad multi-service, multinational program. Is now 
really the time to accept that kind of risk? Wouldn't the Air Force 
agree that this issue is not just a matter of trading up-front costs 
for future savings, but also a matter of operational risk and 
effectiveness?
    Answer. The Air Force supports Secretary Gates' conclusion to not 
pursue a second engine. Maintaining two engine suppliers will result in 
increased development, production, and support costs in the near term. 
The Department of Defense (DOD) consistently emphasizes its opposition 
to a second engine for the Joint Strike Fighter because continued 
funding of the F136 would divert funds from other important defense 
needs. In the middle of two wars, the DOD has higher priority uses for 
the $2.9 billion that would be required to take the F136 to full 
competition. Furthermore, there is no guarantee that having two engines 
will create enough long-term savings to outweigh the significant near-
term investment. The Air Force does not consider a single source engine 
for the F-35 to be an unacceptable increase in operational risk. The 
DOD currently maintains two tactical aircraft programs, the F-22A and 
the F-18, each of which utilize a single source engine provider. Both 
programs have solid safety records, and the DOD is satisfied with the 
engines for both programs. Over the years, significant advancements in 
engine design, testing, production, and sustaining engineering have 
enabled the DOD to manage the risks associated with single engine 
systems without having to ground an entire fleet.
    We believe any benefits that might accrue from continued funding of 
the F136 extra engine would be more than offset by excess cost, 
complexity and risk. A single source engine for the F-35 provides the 
best balance of cost and risk for the DOD's needs in the current 
resource-constrained environment.
                                 ______
                                 
                Questions Submitted by Senator Herb Kohl
    Question. The USAF has developed a process for quantitative and 
qualitative analysis to determine the best bed down locations for 
future F-35 acquisitions. This process has been referred to as 
transparent, repeatable, and defendable.
    What is the process for appeal if a unit believes the score is 
inaccurate?
    Answer. As part of the process, major command staffs responded to 
the data call from the lead major command using data sources maintained 
by each installation. This data was used to create a rank-order list of 
bases. Military judgment was then applied to identify a smaller 
candidate base list.
    Typically a unit is unaware of scores derived during the basing 
process since this occurs at the Headquarters Air Force and this 
information is not shared with installation commanders. If a unit 
believes the data used and resultant scores are inaccurate, they can 
appeal through their major command to then be resolved at the 
Headquarters Air Force level.
    Question. Why, if this is a transparent process, is the USAF 
withholding the scores from public scrutiny?
    Answer. The Air Force Air Force policy throughout the basing 
process has been to provide the Members of Congress the scores for 
installations within their state as well as a relative ranking of each 
installation within the top, middle, or bottom third of the scoring 
range. Installation scores were used to create a rank-order list of 
bases. Military judgment was then applied to identify a smaller 
candidate base list. This candidate list was released to Congress on 
October 29, 2009, and briefings have been provided to congressional 
members and their staff when necessary to explain how the scores were 
derived without revealing the scores of other installations.
    Question. What role did the nations Adjutants General have in this 
process?
    Answer. The Air Force strategic basing process does not include 
direct participation of the Adjutants General. Participative and 
representational roles are reserved for the major commands, which in 
this case, includes the Air National Guard and Headquarters Air Force. 
Base specific information was obtained from major commands and unit 
records, screened by the major command and eventually incorporated into 
analysis by Air Combat Command, the lead major command for F-35A 
basing. The information was then brought to Headquarters Air Force 
senior leaders through the Strategic Basing-Executive Steering Group 
for consideration.
    Question. Were the Adjutants General given an opportunity to 
comment on quantitative scores before the USAF leadership applied 
qualitative analysis?
    Answer. No. The Air Force strategic basing process does not include 
the direct participation of the Adjutants General. Participative and 
representational roles are reserved for the major commands, which in 
this case includes the Air National Guard and Headquarters Air Force. 
The Director of the Air National Guard is fully integrated in the 
basing process and in constant communication with the Adjutants 
General. Base specific information was obtained from major commands and 
unit records, screened by the major command and eventually incorporated 
into analysis by Air Combat Command, the lead major command for F-35A 
basing. The information was then brought to Headquarters Air Force 
senior leaders for their consideration.
    Question. What role did the Director, Air National Guard (DANG) 
have in the qualitative analysis?
    Answer. Air National Guard representatives from the National Guard 
Bureau and the Air Staff participated in the deliberations of the 
Basing Request Review Panel, the first step in the Air Force Strategic 
Basing Process. The Deputy Director, Air National Guard participated in 
the Strategic Basing-Executive Steering Group as it formulated options 
for Chief of Staff and my discussion, review and decision. The 
Director, Air National Guard or his representative participated in 
discussions with us to a final decision regarding which bases were 
identified as training and operations candidate bases.
    Question. Given that he is likely in the best position to know the 
Air National Guard units and locations, was the DANG provided an 
opportunity to shape or influence the USAF leadership's best judgment?
    Answer. Yes. The Deputy Director, Air National Guard participated 
in the Strategic Basing-Executive Steering Group as it formulated 
options for the Secretary and the Chief of Staff discussion, review and 
decision. The Director, Air National Guard also participated in 
discussions with the Chief of Staff and me prior to a final decision 
regarding initial basing locations for the F-35.
    Question. The Wisconsin National Guard submitted a detailed 
analysis of the score for the 115th FW, Madison, Wisconsin, which 
outlines factual errors. This analysis was delayed as the Wisconsin 
National Guard was unable to obtain its score from the USAF through the 
NGB.
    Why did the USAF insist that the NG obtain base scores only through 
congressional delegations?
    Answer. Air Force policy throughout the basing process has been to 
provide only the Members of Congress the scores for installations 
within their state as well as a relative ranking of each installation 
within the top, middle, or bottom third of the scoring range. Base 
specific information was obtained from major command and unit records, 
screened by the major command and eventually incorporated into analysis 
by Air Combat Command, the lead major command for F-35A basing, then 
brought to the Pentagon for consideration by Headquarters Air Force 
senior leaders. Typically a unit is unaware of scores derived during 
the basing process since this occurs at Headquarters Air Force and this 
information is not shared with installation commanders (Active, Guard 
or Reserve). Briefings have been provided to congressional members and 
their staff when necessary to explain how the scores were derived 
without revealing the scores of other installations.
    Question. The WI NG requested correction in five areas amounting to 
nine points. To date, there has been no resolution--what is the current 
status?
    Answer. Although agreement was reached to revise the quantitative 
score, the score change was not enough to significantly affect the 
115th Fighter Wing's relative standing. The Air superiority alert 
mission was considered in the qualitative assessment as positive, but 
was not a driving factor that eliminated any one base as a candidate 
location.
    Question. The WI NG points out that the base score did not 
correctly identify the 115th FW as an ASA home alert location--a 
criteria identified by the USAF as probative in the qualitative 
analysis. If the quantitative score is inaccurate and qualitative 
indicators are not identified, how can the USAF be sure that this unit 
was fairly assessed?
    Answer. Although agreement was reached to revise the quantitative 
score, the score change was not enough to significantly affect the 
115th Fighter Wing's relative standing. The Air superiority alert 
mission was considered in the qualitative assessment as positive, but 
was not a driving factor that eliminated any one base as a candidate 
location.
    Question. How did ASA alert affect the final determination for 
future F-35 bed down locations?
    Answer. The air superiority alert mission was considered in the 
qualitative assessment as positive, but it was not a driving factor 
that eliminated any one base as a candidate location.
    Question. What were the qualitative scores for the other bases in 
the top third? We specifically request the full scoring sheets for 
comparative analysis.
    Answer. Air Force policy throughout the basing process has been to 
provide only the Members of Congress the scores for installations 
within their state as well as a relative ranking of each installation 
within the top, middle, or bottom third of the scoring range. Base 
specific information was obtained from major command and unit records, 
screened by the major command and eventually incorporated into analysis 
by Air Combat Command, the lead major command for F-35A basing, then 
brought to the Pentagon for consideration by Headquarters Air Force 
senior leaders. Typically a unit is unaware of scores derived during 
the basing process since this occurs at Headquarters Air Force and this 
information is not shared with installation commanders (Active, Guard 
or Reserve). Briefings have been provided to congressional members and 
their staff when necessary to explain how the scores were derived 
without revealing the scores of other installations.
    Question. Assuming that the USAF leadership moved some lower 
scoring units above units with higher scores in the basing decision, 
what was the justification for this best military judgment?
    Answer. Lower scoring units (installations) were not moved above 
higher scoring installations. The Air Force produced a rank ordered 
list of installations using quantifiable criteria. Beginning with the 
top-ranked installation, the Air Force reviewed each in rank order, 
applying military judgment to identify candidates that could meet 
mission requirements. An installation could be eliminated from 
consideration as a result of military judgment.
    There were three possible outcomes after military judgment factors 
were considered. These outcomes were: Yes--an installation is a 
candidate within timing window; not yet--an installation is not a 
candidate within timing window; no--an installation is currently 
incompatible with requirements.
    As an example, military judgment factors were developed to assist 
uniquely qualified and experienced senior Air Force leaders in 
identifying candidate installations for basing F-35A aircraft 
programmed for delivery through the fiscal year 2017 timeframe. These 
factors included: Plans and Guidance; Global Posture; Building 
Partnerships; Total Force; Beddown Timing; Force Structure; Training 
Requirements and Efficiencies; Logistics Supportability; and Resources/
Budgeting.
                                 ______
                                 
          Questions Submitted by Senator Kay Bailey Hutchison
                      maintenance in the air force
    Question. For many of its logistics and sustainment functions 
including activities such as supply chain management, product support 
integration, and maintenance, repair and overhaul activities the 
Department of Defense can select from private sector contractors a well 
as organic public depot facilities. Please provide to the Committee a 
description of the methodology employed by the Air Force in making cost 
comparisons between organic public sector facilities and private sector 
contractor providers for the purpose of workload assignment for the 
provision of logistics and sustainment function including but not 
limited to supply chain management, product support integration, and 
maintenance, repair and overhaul work. In particular, please explain to 
the Committee what accounting systems and principles the Air Force uses 
to ensure full cost accounting for both public and private sector 
entities in making decisions regarding the assignment of this logistics 
and sustainment related work.
    Answer. The methodology employed by the Air Force in making cost 
comparisons between organic public sector facilities and private sector 
contractor providers resides as a subset of the overall decisionmaking 
tool codified in Air Force Instruction 65-509 Business Case Analysis, 
and Air Force Manual 65-510 Business Case Analysis Procedures. The 
business case method prescribed in these regulations provides a 
credible, defendable, repeatable and transparent process by which 
decision makers are supported with documented, objective analysis.
    The Air Force has a Source of Repair Assignment Process that 
includes a review of statutory compliance and requires best value 
analysis. The first consideration for workload assignment is whether 
the workload is required to be organic for purposes of meeting 10 
U.S.C. 2464, the statute which directs workload into an organic 
facility for purposes of meeting Core maintenance capability 
requirements, and/or 10 U.S.C. 2466, the statute requiring that no more 
than 50 percent of total funding allocated to depot maintenance be 
performed in the private sector. After an assessment that the workload 
is not required to meet either of these statutes, we then perform best 
value assessment. There are three fundamental factors in this best 
value assessment that are used for the basis of evaluation and eventual 
decision between organic and contract. These factors are costs, 
benefits, and risks, each supplying its own specific subset of criteria 
and variables for analysis and decisionmaking.
    For accounting, the Air Force annually publishes standard composite 
rates in Air Force Instruction 65-503 including pay and benefits for 
military and civilian personnel. The Air Force directs these rates be 
used when preparing business case analyses. Additionally, there are 
other overhead costs categories being added to these rates per 
Directive-Type Memorandum 09-007, ``Estimating and Comparing the Full 
Costs of Civilian and Military Manpower and Contract Support''.
                 f-35 aircraft for lackland afb, texas
    Question. Please explain the Air Force's F-35 stationing plan to 
the Committee. In particular, please address any plans to station F-35 
aircraft at Lackland AFB, Texas.
    Answer. The Air Force is using a repeatable, transparent Strategic 
Basing Process to identify locations for the F-35. Air Combat Command, 
as the lead major command, developed basing criteria which were 
approved by Secretary and the Chief of Staff of the Air Force and 
released to Congress in September 2009. These criteria were applied to 
determine candidate base lists for the initial increments of F-35 
training and operational bases which were provided to Congress in 
October 2009. The environmental impact analysis process is now underway 
and we anticipate releasing preferred basing alternatives in August 
2010, with a Record of Decision announced by spring 2011. Lackland AFB, 
Texas is not one of the candidate bases being considered for this round 
of F-35 basing decisions, but will be considered in future rounds of F-
35 basing.
              newer aircraft for texas air national guard
    Question. Please explain the Air Force's plan to replace the Texas 
Air National Guard's aging F-16 aircraft with newer airplanes at some 
point in the future.
    Answer. The Air Force currently has no plans to replace or retire 
the Texas Air National Guard F-16 Block 30 aircraft within the current 
Future Years Defense Program.
            long range persistent strike development program
    Question. Please explain the long range strike capability that the 
Air Force seeks to develop within its Long Range Persistent Strike 
Development Program?
    Answer. During the 2010 Quadrennial Defense Review, a Secretary of 
Defense-directed tiger team was established to complete an in-depth 
study of long-range strike--including the long range strike platform 
(LRSP) need, requirement, and technology. The team's conclusions were 
supportive of pursuing a new LRSP platform, but identified the need for 
additional analysis to explore options for reducing costs and 
accelerating fielding timelines. Based upon the need for additional 
analysis, the Secretary of Defense chartered a subsequent study to 
examine a broader array of long-range strike issues and options 
including the appropriate mix of long range strike capabilities; 
upgrades to legacy bombers; manned and unmanned force structure 
numbers; stand-off and penetrating platform ratios; stand-off cruise 
missile requirements; intelligence, surveillance, and reconnaissance 
demands; airborne electronic attack requirements; and conventional 
prompt global strike needs. The study results are expected to be 
available in the fall of 2010.
    Although the specific LRSP performance requirements are still being 
developed, a general description of the desired attributes includes:
  --Range and survivability to overcome adversary anti-access 
        strategies and persistence in denied area environments;
  --Flexible, mixed payloads to engage mobile and hard targets; and
  --Visible deterrence capability across the spectrum of conflict.
    We continue our work with the Office of the Secretary of Defense 
and the combatant commanders to define the requirements for long range 
strike and to help determine the composition of the long range strike 
family of systems that will best meet our Nation's needs for this 
critical and enduring mission.
                                 ______
                                 
            Questions Submitted by Senator Robert F. Bennett
    Question. Considering the issue of balance, in your discussion of 
``Global Precision Attack,'' you briefly mention the DOD's plans to 
assess conventional prompt global strike prototypes which were 
referenced in the 2010 QDR. However, given the recent recession, the 
market for small turbofan engines has markedly declined, calling into 
question the long term affordability based on decreased industrial 
capacity.
    In the context of your long-range strike capabilities, what is your 
estimation of the significance of the role global strike platforms 
could play? Can you discuss what steps could/should be taken to prepare 
the way for prompt global strike initiatives in relation to this 
technology?
    Answer. Global precision strike capabilities leverage the inherent 
range, flexibility, and lethality of airpower to hold targets at risk 
around the globe. To ensure their continued viability, we will continue 
to work toward a ``family of systems'' that provides the necessary 
flexibility and agility. Non-nuclear prompt global strike is a unique 
capability that could be used against a specific set of targets in 
limited numbers. It is not intended to be a substitute for other long 
range strike capabilities but rather to complement them as one 
component in the long range strike family of systems. The 2010 Nuclear 
Posture Review highlighted the importance of developing non-nuclear 
prompt global strike capabilities that could prove valuable in 
defeating time-sensitive threats. The Department of Defense is 
currently studying the appropriate mix of long-range strike 
capabilities, including non-nuclear prompt global strike. This follow-
on analysis will build upon the capabilities identified in the 2010 
Quadrennial Defense Review and Nuclear Posture Review allowing the Air 
Force to make specific recommendations in the fiscal year 2012 
President's budget request.
    The Office of the Secretary of Defense is managing a defense-wide 
account, which includes Air Force, Army, Navy and DARPA projects, aimed 
at developing a Prompt Global Strike capability based on hypersonic 
technology. DARPA's hypersonic technology vehicle is an unmanned, 
rocket launched, maneuverable hypersonic air vehicle with no onboard 
propulsion system. Its propulsion is provided by the launch vehicle, a 
Minotaur IV Lite. The Conventional Strike Missile is an Air Force's 
concept for Prompt Global Strike based on DARPA technology development. 
This concept currently involves a strategic sized solid rocket booster 
to allow for a global range capability. The small turbofan engine was 
not a candidate in the Conventional Prompt Global Strike analysis of 
alternatives and is not likely to participate in future discussions due 
to mission range requirements.
    Question. At the present time, only two U.S. companies (ATK and 
Aerojet) produce solid rocket motors for all of our nation's needs, and 
only one company (American Pacific) manufactures their most key 
ingredient. These three companies support all strategic missiles, 
missile defense programs, military and commercial space lift 
capabilities, NASA human spaceflight systems, and the entire cadre of 
tactical missiles available to today's war fighter. However, demand for 
products made by the solid rocket motor industry has been in steady 
decline for many years, and is right now experiencing a further 
dramatic drop with the completion of the Minuteman III Propulsion 
Replacement Program (PRP), the retirement of the Space Shuttle, the 
termination of the Kinetic Energy Interceptor (KEI), the production 
slowdown of Ground-based Midcourse Defense (GMD) interceptors, and the 
Missile Defense Agency's planned transition from a proven solid rocket 
motor-based systems to an unproven liquid propulsion-based system. I 
also understand that prices across weapons systems that are designed 
around the advantages that solid rocket fuel offers--especially the 
capability to have fuel loads that will respond instantly to a launch 
command--will increase given the current course.
    What plans has the Air Force made to sustain this industry, in 
order to continue to meet current deployed and future anticipated 
strategic, space lift, and tactical missile needs? Has the Air Force 
considered the pending price impact on your widely deployed tactical 
systems? Do you know if the other services are aware of this 
approaching issue?
    Answer. The Air Force leverages research and development projects, 
joint and individual production programs, and the focused efforts of 
program managers to assist in supporting key elements of the aerospace 
industrial base needed to respond to the current and emerging global 
environment. For example, with respect to the industrial base for solid 
rocket motors, the fiscal year 2010 President's budget request calls 
for the production of nearly 700 air-to-air tactical missiles. These 
are joint programs supporting the Air Force and the Navy.
    In the case of large (greater than a 40-inch diameter) solid rocket 
motors, the Air Force has been closely monitoring this segment of the 
solid rocket motor industrial base for a number of years. This year, 
the Air Force initiated a phased study and analysis to develop a risk-
based investment strategy focused on sustaining the Minuteman III 
system through 2030. Further, an interagency task force, including 
representation from the Department of Defense (the Office of the 
Secretary of Defense, Army, Navy, Air Force, and Missile Defense 
Agency) and the National Aeronautics and Space Administration, will 
offer solid rocket motor industrial base sustainment recommendations to 
the Secretary of Defense for a subsequent report to Congress.
    At this time there is no impact to deployed tactical Air-to-Air or 
Air-to-Ground Missiles.
    Yes, other Services are aware. An interagency task force, that 
includes representation from the Department of Defense (the Office of 
the Secretary of Defense, Army, Navy, Air Force and Missile Defense 
Agency) and the National Aeronautics and Space Administration, has been 
formed to assess the solid rocket motor industrial base and provide 
recommendations to the Secretary of Defense for a subsequent report to 
Congress.
    Question. Air Force officials have testified before Congress about 
the potential concern that prices for the propulsion systems for the 
Evolved Expendable Launch Vehicle (EELV) might double in price.
    How does the Air Force plan on managing a 200 percent price 
increase to the EELV program and what impact will that have on our 
ability to meet our strategic space requirements?
    Answer. The Air Force will continue to fund EELV to meet assured 
access to space and National Space Transportation Policy requirements.
    The exact increases to EELV launch vehicle costs are not yet known. 
The Air Force has developed preliminary estimates that incorporate 
increasing subcontractor costs. The significant reduction in demand 
within the spacecraft industry has caused subcontractors to rely on the 
EELV program as their primary customer. As a result, EELV bears the 
burden for much of these key suppliers' overhead costs
    In response to these estimates, the Commander, Air Force Space 
Command and the Director, National Reconnaissance Office chartered a 
tiger team to recommend a revised way ahead for the EELV program. Among 
the items the tiger team is evaluating is a more flexible and 
transparent contract structure that increases program and industry 
stability.
    In addition, collaboration is ongoing with the Department of 
Defense, the Office of the Director, National Intelligence, the Air 
Force, and the National Aeronautics and Space Administration to explore 
synergistic community solutions where possible.
    Question. In fiscal year 2009, with much support from this 
committee, the Air Force initiated a Minuteman solid rocket motor warm 
line program, with production continuing in fiscal year 2010 and fiscal 
year 2011. However, the future years defense program (FYDP) provided 
this year shows close out of this warm line effort in fiscal year 2012. 
While the Minuteman III system is now expected to be deployed through 
2030, its solid rocket motors--produced in the early 2000s--were only 
designed to last 20 years, and actually have a maximum demonstrated 
life of only 17 years. There is no way to avoid the fact that the 
Minuteman solid rocket motors will need to be replaced prior to 2030. 
The Air Force has requested approximately $43 million in fiscal year 
2011 for ICBM procurement. However, it is my understanding that the 
funding will only purchase three solid rocket motor sets, but six are 
needed to maintain proper certification to build such systems.
    How does the Air Force plan to sustain the industrial base during 
the time until any next generation system begins development? If this 
program is to be closed out in fiscal year 2012, how does the Air Force 
plan to sustain the Minuteman system's readiness through 2030?
    Answer. The Air Force is currently reevaluating the overall 
Minuteman (MM) III Solid Rocket Motor (SRM) Warm Line concept in order 
to help sustain the strategic SRM industrial base. If the current MM 
III SRM production capability is allowed to lapse, any requirement for 
follow-on MM III SRM production would include the time and costs 
required to reinstate such a capability. The Air Force, in coordination 
with industry, has determined what those costs and timelines would be 
and would include these factors in long-range planning efforts. This 
year, the Air Force initiated a phased study and analysis to develop a 
risk-based investment strategy focused on sustaining the MM III system 
through 2030. Further, an interagency task force, including 
representation from the Department of Defense (the Office of the 
Secretary of Defense, Army, Navy, Air Force, and Missile Defense 
Agency) and the National Aeronautics and Space Administration, will 
offer solid rocket motor industrial base sustainment recommendations to 
the Secretary of Defense for a subsequent report to Congress.
    In 2009 the Air Force completed the Minuteman III Propulsion 
Replacement Program designed to extend the life of the weapon system to 
2020. The Air Force is evaluating options to ensure solid rocket motor 
reliability and supportability to 2030 in conjunction with its 
evaluation of the Minuteman III Solid Rocket Motor (SRM) Warm Line 
concept in relation to sustaining the strategic SRM industrial base. If 
the current Minuteman III SRM production capability is allowed to 
lapse, any requirement for follow-on production would include the time 
and costs required to reinstate that capability. The Air Force, in 
coordination with industry, has determined these costs and timelines 
and will include these factors in mid- to long-range planning efforts. 
Further, an interagency task force, that includes representation from 
the Department of Defense (the Office of the Secretary of Defense, 
Army, Navy, Air Force and Missile Defense Agency) and the National 
Aeronautics and Space Administration, has been formed to offer solid 
rocket motor industrial base sustainment recommendations to the 
Secretary of Defense for a subsequent report to Congress.
                                 ______
                                 
           Questions Submitted to General Norton A. Schwartz
            Questions Submitted by Chairman Daniel K. Inouye
    Question. General Schwartz, to meet emerging requirements, the Air 
Force is quickly expanding its unmanned aerial vehicle and 
cybersecurity missions. It is adding thousands of highly trained 
personnel to these career fields in a short time. These new missions 
are currently very much in demand. Are you concerned about how the high 
operational tempo is affecting the morale of the airmen in these career 
fields?
    Answer. We are always concerned about the morale and welfare of our 
Airmen operating in high operational tempo environments. With respect 
to remotely piloted aircraft (RPA), we have experienced unprecedented 
growth as a result of the increasing demand for the capability these 
systems provide. Initially we had to make some tough choices that had 
an impact on our Airmen, but recently we have implemented initiatives 
that will ``normalize'' the RPA enterprise and reduce the overall 
operational tempo. The two major initiatives are developing specific 
career fields for RPA aircrews and increasing our training capacity. 
These efforts are already mitigating the stress the high operational 
tempo has placed on our manpower infrastructure. As we continue to 
normalize RPA operations, the stresses will be reduced further.
    With respect to cyber security, last year we activated Twenty-
Fourth Air Force and aligned critical cyber capabilities under Air 
Force Space Command. These actions enhanced our capability to conduct 
the full spectrum of military cyberspace operations for U.S. Cyber 
Command and the combatant commanders, while improving our ability to 
operate and defend Air Force networks. We are not significantly 
expanding the number of Airmen performing cyber missions and current 
operational tempo is not adversely affecting morale. However, we are 
making a concerted effort to ``operationalize'' cyber by enhancing 
formal training and implementing certification processes to develop a 
corps of cyberspace professionals. These organizational and force 
development changes will greatly enhance the Air Force's cyber 
capabilities.
    Question. General Schwartz, there is growing concern that there 
could be a lack of missile warning satellite coverage due to the 
continued delays in the Space-based Infrared High program. The Air 
Force terminated the third generation missile warning satellite program 
in fiscal year 2011. What is your plan to mitigate a potential gap in 
coverage?
    Answer. The Air Force response is classified and will be provided 
under separate cover.
    Question. Over the last 2\1/2\ years, $5.3 billion has been 
provided through the Intelligence, Reconnaissance, and Reconnaissance 
Task Force to increase our knowledge of our enemies in Iraq and 
Afghanistan. The fiscal year 2011 request includes an additional $2.6 
billion for this purpose. But the President and the Secretary of 
Defense have stated that we intend to withdraw another 50,000 troops 
from Iraq by this fall and will begin drawing down our Afghanistan 
force in mid-2011.
    General Schwartz, could you explain the need for more ISR 
capability for Afghanistan while our troops are expected to begin their 
withdrawal at the same time?
    Answer. Intelligence, surveillance, and reconnaissance (ISR) has 
proven to be a critical force multiplier for our ground forces. With 
fewer eyes and ears on the ground as the combat forces are withdrawn, 
ISR will become even more important to ensure our remaining troops are 
in the right place at the right time and prepared for the threats they 
will face. Consequently, the Air Force has surged ISR to support U.S. 
Central Command requirements and will continue to adjust ISR capability 
to the theater as those requirements change.
    Additionally, the investments we have made and continue to make in 
improving our ISR capabilities are not limited strictly to operations 
within the U.S. Central Command area of operations. The funds we have 
expended, and are requesting this year, are intended to procure systems 
that can be deployed to any theater to meet warfighter ISR 
requirements.
    Question. General Schwartz, the fiscal year 2001 budget requests 
approximately $200 million for the next generation bomber, while the 
Quadrennial Defense Review states that the Air Force is reviewing 
options to modernize the bomber force. What is the status of this 
review and when will the Congress be informed of the next generation 
bomber acquisition strategy?
    Answer. The Air Force is performing analysis to ensure we fully 
understand how all potential long range strike options contribute to 
the country's future national defense and the National Military 
Strategy before significant funds are committed. During the 2010 
Quadrennial Defense Review, a Secretary of Defense-directed tiger team 
was established to complete an in-depth study of long-range strike, 
including the Long Range Strike Platform (LRSP) need, requirement, and 
technology. The team's conclusions were supportive of pursuing a new 
LRSP platform, but identified the need for additional analysis to 
explore options for reducing costs and accelerating fielding timelines. 
Based upon the need for additional analysis, the Secretary of Defense 
chartered a subsequent study to examine a broader array of long-range 
strike issues and options including the appropriate mix of long range 
strike capabilities; upgrades to legacy bombers; manned and unmanned 
force structure numbers; stand-off and penetrating platform ratios; 
stand-off cruise missile requirements; intelligence, surveillance, and 
reconnaissance demands; airborne electronic attack requirements; and 
conventional prompt global strike needs. RAND is supporting the 
analysis and the study results are expected to be available in the fall 
of 2010.
    Question. General Schwartz, the Air Force plan to cut 18 aircraft 
from the Air National Guard in fiscal year 2011 by retiring 6 C-130Es 
and transferring 12 C-130Hs to the active component raised some 
concerns. The media reported that the Air National Guard was not 
consulted on this plan. I understand that further discussions are now 
taking place within the Air Force. Could you please tell the Committee 
about the issues prompting the restructure and your current solution?
    Answer. As supported by the requirements identified in the recently 
released Mobility Capabilities and Requirements Study 2016 (MCRS 16), 
the Air Force is reducing excess mobility C-130 force structure by 
accelerating the retirement of the C-130Es and retiring some of the 
oldest C-130Hs. This created a shortfall of legacy C-130H aircraft for 
the Formal Training Unit (FTU) at Little Rock AFB, Arkansas. The fiscal 
year 2011 President's budget request proposed the transfer of 18 Air 
Reserve Component C-130Hs to the Active Duty to cover this shortfall 
and support the FTU. This plan was developed as part of the Air Force's 
Corporate Process, which included representation from the Air National 
Guard (ANG) and the Air Force Reserve (AFR). The Air Force, in close 
partnership with the ANG and the AFR, continued to analyze the best 
solution to address the FTU issue even after the fiscal year 2011 
President's budget was developed. The Air Force, including its Total 
Force partners, refined the original fiscal year 2011 President's 
budget request to meet the needs of the C-130 schoolhouse while 
factoring in state mission concerns. The new proposal would allow the 
ANG and AFR to retain ownership of the 18 C-130Hs but still support the 
training needs of the FTU--with the C-130 schoolhouse transitioning 
from an Active Duty run program to an Air Reserve Component run 
program.
    Question. General Schwartz, we understand that the Air Force was 
concerned about having too much of the C-130 force in the Guard and 
Reserves. Can you shed some light on what problem is being solved with 
the proposed shift of aircraft to the active component?
    Answer. As supported by the requirements identified in the Mobility 
Capabilities and Requirements Study 2016 (MCRS 16), the Air Force is 
reducing excess mobility C-130 force structure by accelerating the 
retirement of the C-130Es and retiring some of the oldest C-130Hs. This 
created a shortfall of legacy C-130H aircraft for the Formal Training 
Unit (FTU) at Little Rock AFB, Arkansas. The fiscal year 2011 
President's budget request proposed the transfer of 18 Air Reserve 
Component C-130Hs to the Active Duty to cover this shortfall and 
support the FTU. This plan was developed as part of the Air Force's 
Corporate Process, which included representation from the Air National 
Guard (ANG) and the Air Force Reserve (AFR). The Air Force, in close 
partnership with the ANG and the AFR, continued to analyze the best 
solution to address the FTU issue even after the fiscal year 2011 
President's budget was developed. The Air Force, including its Total 
Force partners, refined the original fiscal year 2011 President's 
budget request to meet the needs of the C-130 schoolhouse while 
factoring in state mission concerns. The new proposal would allow the 
ANG and AFR to retain ownership of the 18 C-130Hs but still support the 
training needs of the FTU--with the C-130 schoolhouse transitioning 
from an Active Duty run program to an Air Reserve Component run 
program.
    Question. General Schwartz, the Joint Cargo Aircraft program is now 
an Air Force responsibility rather than a joint Army-Air Force program. 
Along the way, the previously validated requirement of 78 aircraft 
dropped to 38 aircraft. In testimony last year, several witnesses 
suggested that the JCA requirement may get a re-look during the 
Quadrennial Defense Review. Could you tell us what has happened with 
respect to the JCA requirement?
    Answer. In April 2009, the Office of the Secretary of Defense 
transferred the Joint Cargo Aircraft program to the Air Force, set the 
C-27J buy at 38 aircraft, and directed the Air Force to assume the 
Army's time sensitive/mission critical direct support airlift mission. 
The Secretary of Defense's intent was for the Air Force to use the new 
C-27J and existing C-130 aircraft to accomplish this mission.
    The Mobility Capability Requirements Study 2016 (MCRS-16) 
established the C-130 tactical fleet size at 335 but did not assess 
fleet requirements to perform the direct support mission. Air Mobility 
Command, working with the U.S. Army and others, recently chartered a 
RAND study to better define the direct support mission and detail the 
required direct support fleet given a baseline of 38 C-27Js. Initial 
results of the RAND study are expected in the fall of 2010.
    Question. General Schwartz, what is the status of the basing plan 
for these aircraft?
    Answer. The Air Force is using a repeatable, defendable and 
transparent Strategic Basing Process to identify locations for the C-
27J. The National Guard Bureau, as the lead agency, developed training 
and operations basing criteria, which were approved by Secretary of the 
Air Force and myself and released to the Congress in April 2010. These 
criteria will be applied to create C-27J training and operations 
candidate base lists that will ultimately be approved by the Secretary 
and myself in July 2010. We anticipate releasing the preferred basing 
alternatives in December 2010 and completing the environmental impact 
assessment process by spring 2011.
    Question. The budget requests $66 million for a new program 
procuring 15 Light Mobility Aircraft. This new initiative expands your 
mission which, given the emphasis by Secretary Gates on reducing 
defense expenditures, appears unusual.
    General Schwartz, do you see any difficulty in manning new 
expeditionary units for this aircraft?
    Answer. The Air Force began deliberate planning to support the 
procurement of 15 Light Mobility Aircraft in the fiscal year 2011 
President's budget request which included adding civilian end strength 
to assist with the acquisition/procurement. The Air Force is currently 
finalizing the operations and associated military support manpower 
requirements as part of the process for building the fiscal year 2012 
defense budget utilizing existing skill sets already resident in the 
inventory.
    Question. General Schwartz, is this initiative duplicative with the 
Special Operations Command Foreign Internal Defense air advisory units?
    Answer. The Light Mobility Aircraft program is additive, not 
duplicative. It is designed to bring an aviation ``building partner 
capacity'' capability to general purpose forces. These aircraft will 
help partner nations with emerging air forces develop a basic airlift 
capability that will provide government presence, mobility, and other 
essential capabilities to the host nation. The capability to train, 
advise and equip partner nations' air forces has traditionally been a 
mission in Air Force Special Operations Command (AFSOC); specifically 
the 6th Special Operations Squadron. Although we have expanded the 
ability for this mission to be conducted in AFSOC--in past and coming 
years--we realize that the demand for this capability outpaces our 
ability to increase the mission within the special operations forces 
solely. As a result of this realization, and in compliance with the 
2010 Quadrennial Defense Review Report, we are fielding light mobility 
aircraft in general purpose force units.
    Question. General Schwartz, is there an operational role for these 
aircraft for resupplying American and coalition forces? Does this share 
a capability niche with the Joint Cargo Aircraft?
    Answer. While the LiMA and the C-27J will share some capabilities, 
including the ability to operate from short, rough, unimproved landing 
surfaces, the aircraft will perform two distinct missions. LiMA will 
primarily train Partner Nations in Air Mobility operations, while the 
C-27J will provide a dedicated airlift platform for U.S. and coalition 
forces. LiMA will enable the United States to acquire aircraft that are 
not only affordable, but also the right technology for many of our 
partner nations.
                                 ______
                                 
             Question Submitted by Senator Patrick J. Leahy
    Question. The decision in the Air Force fiscal year 2011 budget to 
pull C-130s from the Air Guard and Reserve into the active duty Air 
Force is troubling. One explanation offered for this decision was that 
these airframes were part of a legacy air mobility fleet of the least 
capable and oldest aircraft. However, no explanation was offered as to 
why the Air Force has chosen to stock the Air Guard and Reserve with 
its oldest aircraft.
    Why aren't such airframes evenly spread across the components, 
rather than given mostly to the Guard and Reserve?
    Answer. The Air Force's original fiscal year 2011 request to move 
18 C-130s from the Air Reserve Component (ARC) to the Active Duty 
enabled retirement of the oldest C-130Es, most of which resided within 
the Active component. Since then, the Air Force and ARC have 
accelerated a previously discussed approach to pass the C-130 legacy 
training requirement to the ARC. This plan eliminates the need to 
transfer ownership of the 18 aircraft in question to the Active 
component. Finally, both the Active and Reserve components possess a 
mix of older and newer C-130s.
                                 ______
                                 
               Question Submitted by Senator Thad Cochran
    Question. General Schwartz, NASA is proposing to rely on an 
emerging commercial space sector to meet future space exploration and 
launch needs, and I am informed that the Air Force has explored 
commercial launch services in the past with mild success.
    How has the commercial industry evolved with spacelift 
capabilities? More importantly, have you looked at government test 
facilities involvement to ensure that commercial industry maintains the 
necessary level of safety and reliability in launching national 
security space assets?
    Answer. The United Launch Alliance (ULA) is currently the sole U.S. 
provider of medium-lift to heavy-lift launch vehicles through the 
Evolved Expendable Launch Vehicle (EELV) program. ULA provides the 
Atlas V and Delta IV families of launch vehicles for national security 
space payloads. While EELV initially targeted a projected large 
commercial demand, the commercial launch market did not materialize and 
now the U.S. Government is driving the market for medium-lift to heavy-
lift launch vehicles. A small number of EELVs have been procured 
commercially outside of the Air Force program office, such as the 
Intelsat-14 launch on an Atlas V on November 23, 2009, and by NASA for 
the NOAA Geostationary Operational Environmental Satellites.
    Emergent commercial launch providers for medium-class payloads, 
such as the Space X Falcon 9 and Orbital Taurus II, are receiving NASA 
funding via Commercial Orbital Transportation System contracts. The 
first launch demonstration flight for Falcon 9 was on June 4, 2010. The 
first planned launch of the Taurus II is in late June 2011.
    A number of U.S. Government test and range facilities support 
commercial space flight. The EELV program used NASA's Plum Brook 
facility for payload fairing qualification; Arnold Engineering 
Development Center for upper stage engine testing; and Edwards AFB, 
California for Delta IV main engine testing. ULA continues to use 
NASA's Stennis Space Center for main engine final assembly and test. 
Additionally, all ULA launches, government and commercial, utilize the 
Air Force spacelift range facilities at the Eastern Range (Cape 
Canaveral AFS, Florida) and the Western Range (Vandenberg AFB, 
California). The testing and qualification performed at these 
government facilities are key contributors to the proven reliability of 
the EELV launch vehicles.
    It is our understanding that Space X employs organic facilities to 
meet their test needs while Orbital plans to use the Stennis facility 
for main engine final assembly and test. To meet their launch needs, 
Space X operates at the Air Force's Eastern and Western Ranges and 
Orbital is building launch facilities at NASA's Wallops Flight 
Facility. We are not aware of any other specific plans for these 
companies to use government facilities.
                                 ______
                                 
              Question Submitted by Senator Sam Brownback
    Question. The Air Force is currently looking into the concept of 
light attack aircraft and may request funds to purchase these aircraft 
in the future. Does the Air Force plan on using light attack aircraft 
solely to train foreign militaries or are there plans for the Air Force 
to develop its own light attack fleet?
    Answer. The 15 light attack aircraft will be used for building 
partnership capacity training. A competitive acquisition strategy will 
be used to procure the 15 light attack continental U.S. based training 
aircraft in fiscal year 2012. The Air Force currently has no plans to 
develop an organic light attack fleet.

                          SUBCOMMITTEE RECESS

    Chairman Inouye. This subcommittee will next meet on 
Tuesday, May 18, at 10 a.m., in a closed session, at which time 
we'll be briefed on issues concerning the United States Pacific 
Command and the United States European Command.
    We will now stand in recess.
    [Whereupon, at 12:14 a.m., Wednesday, May 12, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre></body></html>
